<html>
<title> - SECURING AIR COMMERCE FROM THE THREAT OF TERRORISM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
           SECURING AIR COMMERCE FROM THE THREAT OF TERRORISM

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON 
                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 9, 2011

                               __________

                            Serial No. 112-8

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
72-219                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4c3d4cbe4c7d1d7d0ccc1c8d48ac7cbc98a">[email&#160;protected]</a>  

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois, Vice Chair      Cedric L. Richmond, Louisiana
Mo Brooks, Alabama                   Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Thomas McDaniels, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security........................................     2

                               Witnesses

Mr. John Sammon, Assistant Administrator, Transportation Sector 
  Network Management, Transportation Security Administration:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
Mr. Stephen Lord, Director, Homeland Security and Justice Issues, 
  Government Accountability Office:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9

                             For the Record

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security:
  Letter From the Airforwarders Association......................    16

                               Appendix I

Mr. Douglas A. Smith, Assistant Secretary, Private Sector, Office 
  of Policy, Department of Homeland Security:
  Prepared Statement.............................................    33

                              Appendix II

Questions From Chairman Mike D. Rogers of Alabama for John P. 
  Sammon.........................................................    37
Question From Ranking Member Bennie G. Thompson of Mississippi 
  for John P. Sammon.............................................    40
Question From Ranking Member Sheila Jackson Lee of Texas for John 
  P. Sammon......................................................    41
Questions From Chairman Mike D. Rogers of Alabama for Stephen M. 
  Lord...........................................................    43
Question From Ranking Member Sheila Jackson Lee of Texas for 
  Stephen M. Lord................................................    45


           SECURING AIR COMMERCE FROM THE THREAT OF TERRORISM

                              ----------                              


                        Wednesday, March 9, 2011

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:44 p.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Brooks, Jackson Lee, and 
Richmond.
    Mr. Rogers [presiding]. I would like to welcome everybody. 
The subcommittee is going to come to order now.
    This is our subcommittee's second hearing in the new 
Congress, and I want to thank our witnesses taking the time to 
be with us today.
    Today's hearing is on ``Securing Air Commerce from the 
Threat of Terrorism.'' The strength of our economy depends on 
the safe and secured flow of commerce, and air cargo security 
is the important element of this effort. This hearing is an 
opportunity to examine the state of air cargo security and the 
many challenges that still exist in this environment.
    We know that air cargo was a terrorist target. Last 
October, two packages containing explosives originating from 
Yemen were discovered in route to the United States. Both 
packages were scheduled to fly on both passenger and all cargo 
planes.
    Fortunately due to an intelligence tip, both packages were 
discovered and removed before they could explode but this 
terrorist plot for which al-Qaeda in the Arabian Peninsula, 
AQAP, claimed responsibility reinforced that terrorists are 
constantly looking for new ways to exploit our systems and kill 
innocent people. AQAP is one of the most significant threats we 
face today.
    At the February 9 hearing of the Full Committee, Department 
of Homeland Security Secretary Janet Napolitano reported that 
the terrorist threat to the United States is at its most 
heightened state since September 11, 2001. Michael Leiter, 
Director of the National Counterterrorism Center added that 
AQAP is probably the most significant risk to United States 
Homeland.
    It has been nearly 5 months since the Yemen attack was 
thwarted. Since that time, TSA has worked in collaboration with 
the industry to prevent this type of incident from happening 
again. This collaboration is extremely important to prevent an 
air cargo attack and similar steps need to be taken with TSA's 
foreign partners to ensure that resources are being developed 
and allocated in an intelligence-driven, risk-based manner with 
an appropriate technology in place.
    Recently, Secretary Napolitano announced that by December 
2011, her department would be able to meet the mandate to 
screen 100 percent of inbound cargo of international passenger 
flights. While I applaud the DHS and TSA's progress in securing 
cargo, we cannot lose sight of the fact that all cargo is not 
treated equal. All packages should not necessarily be screened 
the same way, particularly as it distracts us from the real 
threats and result unduly slows commerce.
    There is one thing for sure, no package will ever complain 
about being profiled. For example, a package that is dropped 
off in a country known to be a hot bed for terrorism by an 
unknown individual who pays cash to have it shipped should not 
be treated the same way as cargo being shipped by a trusted 
shipper or business. Just like other areas of aviation 
security, TSA in partnership with industry and its foreign 
partners must focus its resources on the cargo that has been 
deemed the highest-risk cargo in order to get ahead of the next 
attempted attack.
    Our witnesses today are Mr. John Sammon, Assistant 
Administrator of the Office of Transportation Security Network 
Management at TSA; and Mr. Stephen Lord, Director of Homeland 
Security and Justice Issues at the Government Accountability 
Office.
    Mr. Sammon brings over 25 years of transportation 
experience to his position. Mr. Lord is a recognized expert on 
aviation security issues and has provided his expertise to the 
committee on numerous occasions through several important 
states.
    Thank you both for your service to our Nation and for being 
here. Before I recognize the Ranking Member for her opening 
statement, I would like to add that over the next several 
months, this subcommittee will continue its oversight of TSA on 
air cargo and work toward developing legislation to improve the 
air cargo security. I look forward to a continued dialogue with 
both of the witnesses on this as well as our private 
stakeholders.
    I would like to state on record that this hearing should 
serve as an opportunity to discuss any areas where Congress can 
be helpful in improving the tools and authorities TSA has at 
its disposal to carry out its mission to secure air cargo--a 
vital sector of our economy.
    The Chairman now recognizes Ranking Member of the 
subcommittee, the gentlelady from Texas and my friend, Ms. 
Sheila Jackson Lee, for any statements she may have.
    Ms. Jackson Lee. Mr. Chairman, thank you for that courtesy 
and it is certainly a pleasure to work with you and we have 
worked together as friends for a number of years. I want to 
complement you for caring for the mission of this subcommittee 
and the mission of this full committee. This is truly an 
important hearing.
    If I might be a little humorous, it doesn't ring the bells 
and whistles. There are not 49 cameras here to hear us our due 
diligence, but this is the kind of work that our constituency 
assumes us to do a steady diligent, consistent oversight that 
really answers the major question. For example, I will just 
simply say no one would have expected the creativity of 
individual franchising terrorist to pick out air cargo and 
small packages and typewriters, if I might say another item 
that might be without description to do harm to the United 
States. That is why this hearing is so very important because 
we are looking at the weeds and trying to work to find 
solutions and to ensure that the homeland is safe.
    So let me thank you again and thank the witnesses, Sammon, 
Lord for testifying today on this issue. I know that both of 
them know a great deal about it.
    Mr. Lord, you have been before us before as has Mr. Sammon 
with a number of insightful suggestions.
    Today, the subcommittee will continue its oversight into 
air cargo security. In the last Congress, we had two hearings 
on the statutory mandate contained in the implementing 
recommendations of the 9/11 Commission Act directing that all 
cargo on passenger aircraft is screened for explosives. Without 
doubt, this cargo screening mandate is critical to aviation 
security. TSA has informed us that for domestic and out-bound 
flights, industry has implemented screening procedures such 
that all of the belly cargo on passenger aircraft is being 
screened. We are certainly glad of this.
    Might I say, even with that representation, I want to see a 
TSA diligently overseeing that 100 percent cargo inception/
representation because that is what we are supposed to do.
    In October of last year, we learned of a terrorist plot to 
ship explosives from Yemen via passenger and all air cargo 
craft to address this in the United States. Creative, unique, 
not a lot of, if you will, overhead but unfortunately getting 
the job done--the terrorist job done--the bad part of life.
    Through intelligence and coordination between the U.S. 
Government and air carriers, the packages containing explosives 
were intercepted before being transported on flights to the 
United States. But the incident showed that the terrorists are 
still targeting aviation and that there is a potential 
vulnerability to address with respect to air cargo security.
    Mr. Sammon will talk about the need to implement 100 
percent cargo screening on passenger flights inbound to the 
United States, and I know TSA is working with the industry and 
foreign government to achieve its milestones by the end of this 
year. I look forward to receiving an update on this 
international work from you today as well as an assessment of 
the tools you need to accomplish this stance, what are the 
proper protocols that will ensure that we truly are getting the 
best response to the desires that we have made.
    As I have said before, if enacted properly, fulfillment of 
the passenger planes' cargo screening mandate will be a major 
milestone in aviation security. Building and pointing out 
previous mandates to conduct 100 percent screening of checked 
bags, fortify cockpit doors, deploy Federal air marshals, 
secure airport checkpoints and perimeters, and improve the way 
we check passengers against the terrorist watch list.
    Mr. Lord, in your report last year, GAO raised concerns 
about TSA's ability to conduct effective oversight of domestic 
certified cargo screening program known as CCSP. I look forward 
to hearing an update from you on TSA's verification and 
compliance efforts in ensuring that the private sector is 
fulfilling the cargo screening requirement as well as TSA's 
progress in certifying new and effective couriering technology.
    Chairman, I know we share the same interest in securing the 
aviation system while TSA has made great progress in 
establishing security systems for cargo. This is not a time to 
take our eyes off the ball. In fact, it is also important that 
we assess and confirm that we are at the percentages that our 
airline industry suggests and help them if we are not.
    We must ensure that there is domestic compliance by the 
private sector. We must work with foreign governments in 
establishing a credible cargo screening system for air cargo 
inbound to the United States, and we must emphasize Mr. 
Chairman to our foreign friends and others that this is crucial 
and we mean business. We are happy to work with them. We are 
happy to work with them as we have goods traveling there but we 
mean business about securing the homeland.
    I would like to thank our witnesses for coming before us 
today and helping us to shed light on this critical issue. With 
that, Mr. Chairman, I yield back to balance up my time.
    Mr. Rogers. I thank you, the Gentlelady.
    We are again pleased to have two distinguished witnesses 
with us today. I want to remind the witnesses that their entire 
statements have been submitted for the record, and if you would 
like to summarize them in 5-minute increments.
    We will start with Mr. John Sammon. The floor is yours.

      STATEMENT OF JOHN SAMMON, ASSISTANT ADMINISTRATOR, 
   TRANSPORTATION SECTOR NETWORK MANAGEMENT, TRANSPORTATION 
                    SECURITY ADMINISTRATION

    Mr. Sammon. Good afternoon, Chairman Rogers, Ranking Member 
Jackson Lee, and distinguished Members of the subcommittee. I 
would like to echo Ranking Member Jackson Lee's commitment to--
this committee has always been a partner working on--focused on 
better security and we really do appreciate that from TSA's 
standpoint.
    I appreciate the opportunity to appear before you today to 
discuss the progress we have made in air cargo security. TSA 
has put regulatory and compliance programs in place to ensure 
that the industry meets the requirements to screen 100 percent 
of air cargo transported on passenger aircrafts and flights 
originating in the United States.
    In the international arena, a different set of challenges 
confront TSA. The discovery of explosive devices last October 
on-board aircraft bound for the United States demonstrated the 
need for continued vigilance in detecting terrorist devices on-
board all cargo as well as passenger aircraft. The Certified 
Cargo Screening Program, CCSP, established in 2009 has been the 
center of industry's overall ability to screen 100 percent of 
U.S. air cargo. The program achieves our primary goal of 
improving security without negatively impacting the movement of 
goods.
    Currently, we have 1,167 entities serving as CCSFs 
contributing over 54 percent of the total screening volume. TSA 
must remain vigilant in ensuring that certified companies 
properly screen air cargo.
    In fiscal year 2010, TSA increased its cargo inspection for 
us from 450 to 500, plus we have 110 of the 120 deployed cargo 
K-9 teams and conducted 6,000 inspections on CCSF and airline 
screening operations. The CCSP program is voluntary and relies 
on trust and verification. To that end, TSA has a vigorous 
inspection and compliance program to ensure that participants 
are screening as expected.
    Our inspections have found several entities who were 
violating the spirit and letter of the program requirements. We 
have taken a wide range of enforcement actions ranging from 
voluntary withdrawal from the program to civil enforcement, and 
if necessary we will undertake criminal enforcement. TSA takes 
the CCSP program very seriously and we intend to vigorously 
protect its integrity.
    For international air cargo, TSA has requested industry 
comment on the feasibility of screening 100 percent of air 
cargo on passenger air craft bound for the United States by 
December 31, 2011. Air carriers were given a 45-day period in 
which to comment on the proposed 100 percent screening 
requirement after which TSA will review and evaluate comments 
prior to making a final determination. We recognize that 
closing the final gap poses operational challenges for the 
airlines.
    More importantly, however, TSA does not have the same 
inspection and compliance authorities overseas that it has in 
the United States. While TSA can inspect and aggressively 
pursue enforcement action in the United States, any inspection 
of air cargo screening overseas requires the voluntary 
cooperation of our foreign partners.
    To progress in that regard, TSA continues to review other 
countries' National security programs. TSA's recognition of 
other countries' cargo programs will provide us with Government 
oversight of supply chain and screening process.
    Last October, the global counterterrorism community 
disrupted a potential attack when individuals in Yemen with 
ties to al-Qaeda in the Arabian Peninsula attempted to ship 
explosive devices in cargo on-board aircraft bound for the 
United States. We have been working closely with air carriers 
to continue to refine our counterterrorism strategy based upon 
focused, measured intelligence-driven protocols.
    The terrorists who are intended upon doing us harm would 
like nothing more for the United States to adopt the reactive 
and defensive posture in lieu of crafting thoughtful focused 
approach. Our measures are designed to produce maximum security 
capability without disrupting critical supply chains.
    In conclusion, thank you for the opportunity to appear 
before the subcommittee today, and I look forward to your 
questions.
    [The statement of Mr. Sammon follows:]

                   Prepared Statement of John Sammon
                             March 9, 2011

    Good afternoon Chairman Rogers, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. I appreciate the opportunity 
to appear before you today to discuss the progress that the 
Transportation Security Administration (TSA) is making in fulfilling 
air cargo security requirements established by Congress. I thank the 
subcommittee for its leadership role in promoting transportation 
security for the American public, and I look forward to our dialogue 
today and your thoughts about how we can further improve air cargo 
security.
    TSA is pleased to report that, in conjunction with the air cargo 
industry, we met the August 2010 mandate included in the Implementing 
Recommendations of the 9/11 Commission Act of 2007 (9/11 Act) to screen 
100 percent of cargo transported on flights of passenger aircraft 
originating within the United States. A different set of challenges 
confronts TSA as we continue to make substantial progress toward 
achieving the 100 percent screening mandate on all international 
inbound passenger flights to the United States. Additionally, the 
discovery of explosive devices last October on-board aircraft 
originating in Yemen and ultimately bound for the United States further 
demonstrated the need for continued vigilance in detecting terrorist 
devices on-board all-cargo aircraft as well as on-board passenger 
aircraft.
    Going forward, we need to utilize all available means at our 
disposal for countering the terrorist threat, developing initiatives 
with other Department of Homeland Security (DHS) components and 
offices, and continuing to work collaboratively with our partners 
internationally and in the private sector. As we pursue intelligence-
driven initiatives both domestically and internationally, we will 
continue to work closely with the subcommittee in examining how best to 
protect the traveling public, facilitate the flow of commerce, and 
guard against the actions of terrorists.

    DOMESTIC CARGO SCREENING INITIATIVES MEET STATUTORY REQUIREMENTS

    In fulfilling a key provision of the 9/11 Act, last August TSA 
worked with partners in the air cargo industry to successfully meet the 
100 percent cargo screening mandate on domestic and international 
outbound passenger aircraft on schedule.
    We met the deadline within a 3-year period with the assistance from 
a wide spectrum of parties, including air carriers, the shipping 
industry, freight forwarders and major associations, such as the Air 
Forwarders Association and the Air Transport Association.
    The Certified Cargo Screening Program (CCSP), which was permanently 
established in 2009 through an Interim Final Rule, has been at the 
center of industry's overall success. Under this program, 
responsibility for cargo screening is voluntarily distributed 
throughout the supply chain to improve security and minimize the 
bottleneck and potential negative impact on the integrity and movement 
of commerce that would be created by screening 100 percent of air cargo 
at the Nation's airports. Currently, we have 1,167 entities serving as 
Certified Cargo Screening Facilities (CCSF), contributing over 54 
percent of the total screening volume. Without their participation, the 
100 percent screening mandate could not have been met.
    TSA must remain vigilant, however, in ensuring that certified 
companies properly screen air cargo. In fiscal year 2010, TSA increased 
its cargo inspection force from 450 to 500 and conducted 6,042 
inspections on CCSF and airline screening operations. Our training must 
be comprehensive and compliance must be rigorously enforced. To assist 
in this effort, TSA recently created and released detailed screening 
training materials to industry partners. The materials ensure a 
consistent, high level of training industry-wide on TSA's requirements 
for cargo handling and screening, facilitate compliance with our 
security programs, and ultimately drive better security for air cargo.
    Participation in the CCSP program is voluntary, but once accepted 
into the program, a CCSF becomes a regulated party. TSA has a vigorous 
inspection and compliance program to ensure that CCSP participants are 
screening as required. If inspections uncover entities violating the 
spirit and letter of the program requirements, there are a wide range 
of enforcement actions ranging from voluntary withdrawal from the 
program to civil enforcement, and if necessary we will undertake 
criminal enforcement. TSA takes the CCSP program very seriously and we 
vigorously ensure its integrity.

         INTERNATIONAL CARGO SCREENING FACES UNIQUE CHALLENGES

    All high-risk cargo on international flights bound for the United 
States is prohibited from being transported on passenger aircraft. All 
high-risk cargo goes through enhanced security procedures before being 
shipped on all-cargo aircraft. Nevertheless, complex challenges exist 
in reaching 100 percent screening of cargo loaded on passenger aircraft 
in-bound to the United States. TSA is working assiduously to meet the 
international requirement of the 9/11 Act mandate, and recent global 
events have only further demonstrated the compelling need to heighten 
security as soon as is practicable. In light of the latest threats and 
the considerable progress made by air carriers in screening 
international in-bound cargo, TSA has requested industry comment on the 
feasibility of a proposed deadline of December 31, 2011 to screen 100 
percent of the cargo that is transported on passenger aircraft bound 
for the United States--2 years earlier than previously anticipated.
    Air carriers were given a 30- to 45-day period (30 days for 
domestic, 45 days for international carriers) in which to comment on 
the proposed deadline, after which time TSA will review and evaluate 
the industry comments prior to making a final determination.
    Since passenger air carriers began providing detailed reports on 
in-bound screening percentages in June 2010, it is apparent that more 
cargo is being screened than TSA had earlier estimated. Many air 
carriers, including a high number of wide-body operators, are already 
at or close to 100 percent screening of air cargo in-bound to the 
United States. However, we recognize that closing the final gap poses 
some operational challenges for airlines. More importantly, TSA does 
not have the same inspection and compliance authorities overseas that 
it has in the United States. While TSA can inspect and aggressively 
pursue enforcement action in the United States under the Interim Final 
Rule, any inspection of air cargo screening overseas requires the full 
voluntary cooperation of our foreign partners.
    To address these challenges, TSA will continue to review other 
countries' National Country Security Programs (NCSP) to determine 
whether their programs provide a level of security commensurate with 
the level of security provided by existing U.S. air cargo security 
programs. TSA's recognition of other countries' NCSPs will provide us 
with Government oversight of the supply chain and screening process. We 
are aware that many country programs support a supply chain approach 
similar to our CCSP. Since we cannot establish a CCSP program overseas, 
the NCSP approach is a key element in helping industry to accomplish 
the 100 percent screening goal while also enabling TSA to ensure that 
inspections and compliance actions are well established by the host 
government programs and commensurate with U.S. security standards. We 
are renewing our efforts to ensure broader international awareness of 
TSA's Congressional screening mandate, and to encourage countries to 
share their NCSPs with us for review.
    In addition, air carriers will be able to use Authorized 
Representatives to perform screening on their behalf. Authorized 
Representatives will allow for cargo to be screened by entities such as 
freight forwarders, operating under the airline program, enabling them 
to screen the cargo at various points in the supply chain.

 SECURITY ARRANGEMENTS FOLLOWING THE AIR CARGO PACKAGES INCIDENT FROM 
                                 YEMEN

    Last October, the global counterterrorism community disrupted a 
potential attack when individuals in Yemen with ties to al-Qaeda in the 
Arabian Peninsula attempted to conceal and ship explosive devices in 
cargo on-board aircraft that traveled through several foreign nations, 
and ultimately were bound for the United States.
    TSA joined with another DHS agency, U.S. Customs and Border 
Protection (CBP), and immediately initiated additional measures to 
enhance existing protocols for screening in-bound cargo. These included 
temporarily disallowing all air cargo shipments originating in Yemen 
destined for the United States and expanding the same policy to include 
shipments originating in Somalia. TSA has also taken appropriate 
measures to enhance security requirements for in-bound air cargo 
shipments on passenger and all-cargo planes, and, together with CBP, is 
in close collaboration with the international shipping community to 
provide additional security measures for in-bound shipments on all-
cargo aircraft.
    DHS has been working closely with air carriers to continue to 
refine our counterterrorism strategy based upon focused, measured 
intelligence-driven protocols. Our measures are designed to produce the 
maximum security capability without disrupting critical shipping supply 
chains.

            TECHNOLOGY AND EXPLOSIVES DETECTION CANINE TEAMS

    TSA's on-going layered efforts to ensure the highest possible level 
of security for both domestic and international air cargo include a 
variety of innovative and cost-effective programs, including an on-
going analysis of technology and the inclusion of authorized 
representatives to screen on an airline's behalf. We will continue to 
partner with our international partners and will remain an 
intelligence-driven agency focused upon detecting, deterring, and 
dismantling attempted terrorist attacks.
    Technology will continue to play an important role in screening air 
cargo. We will continue to evaluate screening technologies to ensure 
that industry has the most effective equipment at its disposal. 
Currently, approximately 80 equipment models are fully certified for 
cargo, up from 20 in February 2009. In 2010, TSA added a new category 
of technology, Electro Magnetic Detection (EMD), which has proven to be 
an effective means of screening products such as perishable 
commodities.
    Our explosives detection canine teams are one of our most reliable 
resources for cargo screening. These highly effective, mobile teams can 
quickly locate and identify dangerous materials that may present a 
threat to cargo and aircraft. Our Proprietary Explosives Detection 
Canine Teams pair TSA Cargo Inspectors and explosive detection canines 
to search cargo bound for passenger aircraft. These teams have been 
deployed to several of our Nation's largest airports. They can also be 
deployed anywhere in the transportation system in support of TSA's 
mission during periods of heightened security.
    Currently, TSA's proprietary canines in the United States perform 
both primary and secondary (backup) screening at airline facilities in 
20 major air cargo gateway cities, screening more than 53 million 
pounds per month as of January 2011. TSA, working closely with the 
private sector, has also launched a private sector canine pilot program 
which, if successful, would enable industry to utilize privately 
operated teams that meet the same strict standards to which TSA teams 
are trained and maintained.

                               CONCLUSION

    Thank you for the opportunity to appear before the subcommittee 
today to discuss TSA's on-going efforts to increase air cargo security. 
I look forward to your questions.

    Mr. Rogers. Thank you, Mr. Sammon.
    Mr. Lord, you are recognized for 5 minutes.

  STATEMENT OF STEPHEN LORD, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lord. Thank you, Mr. Chairman. Chairman Rogers, Ranking 
Member Jackson Lee, and other Members of the subcommittee, 
thanks for inviting me here today to discuss air cargo 
screening issues.
    This is an important issue as each year over 6 billion 
pounds of air cargo is shipped via U.S. passenger flights, and 
the October 2010 incident in Yemen also highlights the 
importance of establishing an effective air cargo screening 
system. Today, I would like to discuss two issues--TSA's 
progress as well as its related challenges in screening 100 
percent of air cargo on passenger flights per the 9/11 Act 
mandate.
    As you know, the act required TSA to establish a system to 
screen 100 percent of cargo not only on domestic passenger 
flights but in-bound passenger crafts as well. The key message 
I want to convey today is that TSA has taken several important 
steps to establish a system to screen domestic air cargo but 
still faces some important challenges related to screening the 
in-bound air cargo.
    In terms of progress in screening domestic air cargo and as 
noted by Mr. Sammon, TSA created the voluntary--the so-called 
certified cargo screening program to allow screening to take 
place earlier in the air cargo supply chain essentially away 
from airports. And TSA has also expanded its explosive 
detection K-9 program and as Mr. Sammon noted, as of February 
of this year, TSA has 113 explosive detection K-9 teams and is 
in the process of adding seven more.
    There is also a new rainfall regarding K-9s. TSA 
established a new pilot program to test the feasibility of 
using private sector K-9 teams train the TSA standards to help 
inspect air cargo. These steps have helped TSA meet the 
screening mandate as it applies to domestic cargo. However, I 
would like to discuss some of the in-bound air cargo screening 
issues I alluded to earlier and this merits special attention.
    In terms of progress, TSA reports they will now meet the 9/
11 Act mandate as it applies to in-bound by December of this 
year. This is 2 years earlier than the TSA administrator 
reported to Congress back in November. What accounts for the 
new optimism?
    According to TSA, air carriers have changed their business 
practices after TSA introduced new screening requirements for 
shrink-wrapped and banded cargo. Shrink-wrapped and banded 
cargo is a major method to move air cargo on wide body 
aircraft. As a result of this, TSA says air cargo is now being 
screened--more cargos being screened at the point of origin 
before it is assembled into pallets, which has resulted in 
higher levels of screening.
    However, I think it is really important to hear industry 
viewpoints on this matter because there is an old management 
adage you spend 80 percent of your time worried about 20 
percent of the problem, and TSA is reporting about 80 percent 
of the in-bound cargos being screened. I think that last 20 
percent could be problematic.
    Moreover, as we previously reported, TSA does not have a 
mechanism to verify the accuracy of the data reported air 
carriers to judge whether, in fact, the mandate is actually 
being met. Given the new deadline, it becomes even more 
important for them to have good data. As Mr. Sammon noted, 
another challenge is that TSA has limited authority to regulate 
foreign government and entities. Foreign governments generally 
cannot be compelled to implement or mutually recognize U.S. 
security measures. It is all done on a voluntary basis.
    A third very important challenge related to in-bound is 
there is no technology that is currently approved or qualified 
to screen large so-called ULD pallets and containers. Again, as 
we previously reported, this is a major method of moving air 
cargo from abroad. Thus, we have several open questions about 
how this system is going to work in practice and whether they 
are going to be able to meet this new December deadline.
    In closing, an effective air cargo screening system not 
only requires effective technology, timely intelligence, 
capable and well-trained staff but also clearly define policies 
and procedures and regular oversight such as by this committee 
to help ensure the system works this design.
    Mr. Chairman, this concludes my statement. I look forward 
to answering any questions that you or Ranking Member Jackson 
Lee or other distinguished Members of the committee may have.
    [The statement of Mr. Lord follows:]

                   Prepared Statement of Stephen Lord
                             March 9, 2011

                             GAO HIGHLIGHTS

    Highlights of GAO-11-413T, a testimony before the Subcommittee on 
Transportation Security, Committee on Homeland Security, House of 
Representatives.

Why GAO Did This Study
    The Department of Homeland Security's (DHS) Transportation Security 
Administration (TSA) is the Federal agency with primary responsibility 
for securing the air cargo system. The Implementing Recommendations of 
the 9/11 Commission Act of 2007 mandated DHS to establish a system to 
screen 100 percent of cargo flown on passenger aircraft by August 2010. 
GAO reviewed TSA's progress in meeting the act's screening mandate, and 
any related challenges it faces for both domestic (cargo transported 
within and from the United States) and inbound cargo (cargo bound for 
the United States). This statement is based on prior reports and 
testimonies issued from April 2007 through December 2010 addressing the 
security of the air cargo transportation system and selected updates 
made in February and March 2011. For the updates, GAO obtained 
information on TSA's air cargo security programs and interviewed TSA 
officials.

What GAO Recommends
    GAO has made recommendations in prior work to strengthen air cargo 
screening. Although not fully concurring with all recommendations, TSA 
has taken or has a number of actions underway to address them. 
Continued attention is needed to ensure some recommendations are 
addressed, such as establishing a mechanism to verify screening data. 
TSA provided technical comments on the information in this statement, 
which GAO incorporated as appropriate.

 AVIATION SECURITY.--PROGRESS MADE, BUT CHALLENGES PERSIST IN MEETING 
                  THE SCREENING MANDATE FOR AIR CARGO

What GAO Found
    As of August 2010, TSA reported that it met the mandate to screen 
100 percent of air cargo as it applies to domestic cargo, but as GAO 
reported in June 2010, TSA lacked a mechanism to verify the accuracy of 
the data used to make this determination. TSA took several actions in 
meeting this mandate for domestic cargo, including creating a voluntary 
program to facilitate screening throughout the air cargo supply chain; 
taking steps to test technologies for screening air cargo; and 
expanding its explosives detection canine program, among other things. 
However, in June 2010 GAO reported that TSA did not have a mechanism to 
verify screening data and recommended that TSA establish such a 
mechanism. TSA partially concurred with this recommendation and stated 
that verifying such data would be challenging. As GAO reported in June 
2010, data verification is important to provide reasonable assurance 
that screening is being conducted at reported levels. As GAO further 
reported in June 2010, there is no technology approved or qualified by 
TSA to screen cargo once it is loaded onto a pallet or container-both 
of which are common means of transporting domestic air cargo on 
passenger aircraft. As a result, questions remain about air carriers' 
ability to effectively screen air cargo on such aircraft.
    TSA has also taken a number of steps to enhance the security of 
inbound air cargo, but also faces challenges that could hinder its 
ability to meet the screening mandate. TSA moved its deadline for 
meeting the 100 percent screening mandate as it applies to inbound air 
cargo to the end of 2011, up 2 years from when the TSA administrator 
previously reported the agency would meet this mandate. According to 
TSA officials, the agency determined it was feasible to accelerate the 
deadline as a result of trends in air carrier reported screening data 
and discussions with air cargo industry leaders regarding progress made 
by industry to secure cargo on passenger aircraft. TSA also took steps 
to enhance the security of inbound cargo following the October 2010 
Yemen air cargo bomb attempt--such as requiring additional screening of 
high-risk cargo prior to transport on an all-cargo aircraft. However, 
TSA continues to face challenges GAO identified in June 2010 that could 
impact TSA's ability to meet this screening mandate as it applies to 
inbound air cargo. For example, GAO reported that TSA's screening 
percentages were estimates and were not based on actual data collected 
from air carriers or other entities, such as foreign governments, and 
recommended that TSA establish a mechanism to verify the accuracy of 
these data. TSA partially agreed, and required air carriers to report 
inbound cargo screening data effective May 2010. However, TSA officials 
stated while current screening percentages are based on actual data 
reported by air carriers, verifying the accuracy of the screening data 
is difficult. It is important for TSA to have complete and accurate 
data to verify that the agency can meet the screening mandate. GAO will 
continue to monitor these issues as part of its ongoing review of TSA's 
efforts to secure inbound air cargo, the final results to be issued 
later this year.
    Mr. Chairman and Members of the subcommittee: I appreciate the 
opportunity to participate in today's hearing to discuss the security 
of the Nation's air cargo system. In 2009, about 6.5 billion pounds of 
cargo were transported on U.S. passenger flights-approximately 56 
percent of which was transported domestically (domestic cargo) and 44 
percent of which was transported on flights arriving in the United 
States from a foreign location (inbound cargo).\1\ The October 2010 
discovery of explosive devices in air cargo packages bound for the 
United States from Yemen, and the 2009 Christmas day plot to detonate 
an explosive device during an international flight bound for Detroit, 
provide vivid reminders that civil aviation remains a key terrorist 
target. According to the Transportation Security Administration (TSA), 
the security threat posed by terrorists introducing explosive devices 
in air cargo shipments is significant, and the risk and likelihood of 
such an attack directed at passenger aircraft is high.
---------------------------------------------------------------------------
    \1\ For the purposes of this statement, domestic cargo refers to 
cargo transported by air within the United States and from the United 
States to a foreign location by both U.S. and foreign air carriers, and 
inbound cargo refers to cargo transported by both U.S. and foreign air 
carriers from a foreign location to the United States. These cargo 
statistics were provided by the Transportation Security Administration 
from the Bureau of Transportation Statistics.
---------------------------------------------------------------------------
    The Aviation and Transportation Security Act (ATSA), enacted into 
law shortly after the September 11, 2001, terrorist attacks, 
established TSA and gave the agency responsibility for securing all 
modes of transportation, including the Nation's civil aviation system, 
which includes air carrier operations (domestic and foreign) to, from, 
and within the United States.\2\ For example, ATSA requires that TSA 
provide for the screening of all passengers and property, including 
cargo, transported on passenger aircraft.\3\ ATSA further requires that 
a system be in operation, as soon as practicable after ATSA's enactment 
(on November 19, 2001), to screen, inspect, or otherwise ensure the 
security of the cargo transported by all-cargo aircraft-generally, 
aircraft that carry only cargo and no passengers--to, from, and within 
the United States.\4\ To help enhance the security of air cargo, the 
Implementing Recommendations of the 9/11 Commission Act of 2007 (9/11 
Commission Act) mandated the Department of Homeland Security (DHS) to 
establish a system to screen 100 percent of cargo on passenger 
aircraft--including the domestic and inbound flights of foreign and 
U.S. passenger operations--by August 2010.\5\ The 9/11 Commission Act 
defines screening for purposes of the air cargo screening mandate as a 
physical examination or nonintrusive methods of assessing whether cargo 
poses a threat to transportation security.\6\ The act further requires 
that such a system provide a level of security commensurate with the 
level of security for the screening of checked baggage. According to 
TSA, the mission of its air cargo security program is to secure the air 
cargo transportation system while not unduly impeding the flow of 
commerce. Although the mandate is applicable to both domestic and 
inbound cargo, TSA stated that it must address the mandate for domestic 
and inbound cargo through separate systems because of limitations in 
its authority to regulate international air cargo industry stakeholders 
operating outside the United States.
---------------------------------------------------------------------------
    \2\ See Pub. L. No. 107-71, 115 Stat. 597 (2001).
    \3\ See Pub. L. No. 107-71,  110(b), 115 Stat. at 614-15 (codified 
as amended at 49 U.S.C.  44901).
    \4\ See 49 U.S.C.  44901(f) (requiring the system to be in 
operation as soon as practicable after the date of enactment--November 
19, 2001--but without establishing a firm deadline).
    \5\ See Pub. L. No. 110-53,  1602(a), 121 Stat. 266, 477-79 (2007) 
(codified at 49 U.S.C. 44901(g)).
    \6\ Although TSA is authorized to approve additional methods for 
screening air cargo beyond the physical examination or nonintrusive 
methods listed in the statute, the statute expressly prohibits the use 
of methods that rely solely on performing a review of information about 
the contents of cargo or verifying the identity of a shipper. See 49 
U.S.C.  44901(g)(5).
---------------------------------------------------------------------------
    My statement today addresses TSA's progress and challenges in 
meeting the 9/11 Commission Act mandate to screen air cargo on 
passenger flights, both domestic cargo and cargo transported from a 
foreign location to the United States, known as inbound air cargo. My 
comments are based primarily on our prior reports and testimonies 
issued from April 2007 through December 2010 addressing the security of 
the air cargo transportation system, with selected updates in February 
and March 2011.\7\ For these reports, we reviewed documents such as 
TSA's air cargo security policies and procedures and conducted site 
visits to four category X airports and one category I airport in the 
United States that process domestic and inbound air cargo.\8\ We 
selected these airports based on airport size, passenger and air cargo 
volumes, location, and participation in TSA's screening program. For 
the updates, we obtained information on TSA's air cargo security 
programs and interviewed senior TSA officials regarding plans, 
strategies, and steps taken to meet the 100 percent screening mandate 
since December 2010. More detailed information about our scope and 
methodology is included in our reports and testimonies. We conducted 
this work in accordance with generally accepted Government auditing 
standards. We shared the information in this statement with TSA 
officials who provided technical comments that were incorporated as 
appropriate.
---------------------------------------------------------------------------
    \7\ See GAO, Aviation Security: DHS Has Taken Steps to Enhance 
International Aviation Security and Facilitate Compliance with 
International Standards, but Challenges Remain, GAO-11-238T 
(Washington, DC: Dec. 2, 2010); Aviation Security: Progress Made but 
Actions Needed to Address Challenges in Meeting the Air Cargo Screening 
Mandate, GAO-10-880T (Washington, DC: June 30, 2010); Aviation 
Security: TSA Has Made Progress but Faces Challenges in Meeting the 
Statutory Mandate for Screening Air Cargo on Passenger Aircraft, GAO-
10-446 (Washington, DC: June 28, 2010); Homeland Security: Better Use 
of Terrorist Watchlist Information and Improvements in Deployment of 
Passenger Screening Checkpoint Technologies Could Further Strengthen 
Security, GAO-10-401T (Washington, DC: Jan. 27, 2010); Aviation 
Security: Foreign Airport Assessments and Air Carrier Inspections Help 
Enhance Security, but Oversight of These Efforts Can Be Strengthened, 
GAO-07-729 (Washington, DC: May 11, 2007); and Aviation Security: 
Federal Efforts to Secure U.S.-Bound Air Cargo Are in the Early Stages 
and Could Be Strengthened, GAO-07-660 (Washington, DC: Apr. 30, 2007).
    \8\ There are 462 TSA-regulated airports in the United States. TSA 
classifies the airports it regulates into one of five categories (X, I, 
II, III, and IV) based on various factors, such as the total number of 
takeoffs and landings annually, the extent to which passengers are 
screened at the airport, and other special security considerations. In 
general, category X airports have the largest number of passenger 
boardings, and category IV airports have the smallest.
---------------------------------------------------------------------------
TSA REPORTS THAT IT MET THE SCREENING MANDATE AS IT APPLIES TO DOMESTIC 
CARGO, BUT PREVIOUSLY IDENTIFIED DATA LIMITATIONS AND OTHER CHALLENGES 
                                PERSIST

    TSA took several actions to address the 9/11 Commission Act mandate 
to screen 100 percent of air cargo as it applies to domestic cargo 
transported on passenger aircraft by August 2010. As of August 2010, 
TSA reported that it met the 9/11 Commission Act mandate to screen 100 
percent of air cargo as it applies to domestic cargo, although in June 
2010 we reported that TSA lacked a mechanism to verify the accuracy of 
the data used to make this determination.
    To help meet the mandate, TSA took several actions, among them:
    TSA created a voluntary program to facilitate screening throughout 
the air cargo supply chain.--Since TSA concluded that relying solely on 
air carriers to conduct screening would result in significant cargo 
backlogs and flight delays, TSA created the voluntary Certified Cargo 
Screening Program (CCSP) to allow screening to take place earlier in 
the shipping process, prior to delivering the cargo to the air carrier. 
Under the CCSP, facilities at various points in the air cargo supply 
chain, such as shippers, manufacturers, warehousing entities, 
distributors, third-party logistics companies, and freight forwarders 
that are located in the United States, may voluntarily apply to TSA to 
become certified cargo screening facilities (CCSF).\9\ TSA initiated 
the CCSP at 18 U.S. airports that process high volumes of air cargo, 
and then expanded the program to all U.S. airports in early 2009.
---------------------------------------------------------------------------
    \9\ A freight forwarder is a company that consolidates cargo from 
multiple shippers onto a master air waybill--a manifest of the 
consolidated shipment--and delivers the shipment to air carriers for 
transport. For the purpose of this statement, the term freight 
forwarder only includes those freight forwarders that are regulated by 
TSA, also referred to as indirect air carriers.
---------------------------------------------------------------------------
    TSA is taking steps to test technologies for screening air 
cargo..--To test select screening technologies among CCSFs, TSA created 
the Air Cargo Screening Technology Pilot in January 2008, and selected 
some of the Nation's largest freight forwarders to use these 
technologies and report on their experiences.\10\ In a separate effort, 
in July 2009, DHS's Directorate for Science and Technology completed 
the Air Cargo Explosives Detection Pilot Program that tested the 
performance of select baggage screening technologies for use in 
screening air cargo at three U.S. airports. In March 2009, TSA 
initiated a qualification process to test these and other technologies 
for air carriers and CCSP participants to use in meeting the screening 
mandate against TSA technical requirements. In December 2009, TSA 
issued to air carriers and CCSFs its first list of qualified 
technologies which included X-ray and explosives detection systems 
(EDS) models that the agency approved for screening air cargo under the 
9/11 Commission Act. Over the past several years, TSA has evaluated and 
qualified additional technologies and has issued subsequent lists, most 
recently in February 2011. These technologies were in addition to the 
canine and physical search screening methods permitted by TSA.
---------------------------------------------------------------------------
    \10\ Initially, the Air Cargo Screening Technology Pilot was 
limited to high-volume freight forwarders (i.e., freight forwarders 
processing at least 200 shipments annually per location that contain 
cargo consolidated from multiple shippers). However, in November 2008, 
TSA issued a second announcement seeking additional high-volume freight 
forwarders and independent cargo screening facilities to apply for the 
pilot.
---------------------------------------------------------------------------
    TSA expanded its explosives detection canine program.--As of 
February 2011, TSA officials stated that the agency had 113 dedicated 
air cargo screening canine teams--operating in 20 airports--and was in 
the process of adding 7 additional canine teams. TSA headquarters 
officials explained that two CCSFs are participating in a pilot program 
to test the feasibility of using private canine teams--that meet TSA 
standards--to inspect air cargo. Officials stated that the pilot is 
expected to continue through summer 2011.
    Even with these actions, TSA continues to face challenges that, 
among other things, could limit the agency's ability to provide 
reasonable assurance that screening is being conducted at reported 
levels. Among the challenges and recommendations previously identified 
in our June 2010 report are the following.
  <bullet> Reported screening data.--TSA does not have a mechanism to 
        verify screening data--which are self-reported by industry 
        representatives. In our June 2010 report, we recommended that 
        TSA develop a mechanism to verify the accuracy of all screening 
        data through random checks or other practical means.\11\ TSA 
        partially concurred with our recommendation, and stated that 
        verifying the accuracy of domestic screening data will continue 
        to be a challenge because there is no means to cross-reference 
        local screening logs--which include screening information on 
        specific shipments--with screening reports submitted by air 
        carriers to TSA that do not contain such information. Given 
        that the agency uses these data to report to Congress its 
        compliance with the screening mandate as it applies to domestic 
        cargo, we continue to believe that verifying the accuracy of 
        the screening data is important so that TSA will be better 
        positioned to provide reasonable assurance that screening is 
        being conducted at reported levels.
---------------------------------------------------------------------------
    \11\ GAO-10-880T.
---------------------------------------------------------------------------
  <bullet> Screening technology.--TSA has not approved or qualified any 
        equipment to screen cargo transported on unit-load device (ULD) 
        pallets or containers--both of which are common means of 
        transporting air cargo on wide-body passenger aircraft--both 
        domestic and inbound aircraft.\12\ Cargo transported on wide-
        body passenger aircraft makes up 76 percent of domestic air 
        cargo shipments transported on passenger aircraft. The maximum 
        size cargo configuration that may be screened is a 484865 " 
        skid--much smaller than the large pallets that are typically 
        transported on wide-body passenger aircraft. Prior to May 1, 
        2010, canine screening was the only screening method, other 
        than physical search, approved by TSA to screen such cargo 
        configurations. However, effective May 1, 2010, the agency no 
        longer allows canine teams to screen ULD pallets and containers 
        given TSA concerns about the effectiveness of this screening 
        method for those cargo configurations. In addition, TSA is 
        working to complete qualification testing of additional air 
        cargo screening technologies; thus, until all stages of 
        qualification testing are concluded, the agency may not have 
        reasonable assurance that the technologies that air carriers 
        and program participants are currently allowed to use to screen 
        air cargo are effective. TSA is conducting qualification 
        testing to determine which screening technologies are effective 
        at the same time that air carriers are using these technologies 
        to meet the mandated requirement to screen air cargo 
        transported on passenger aircraft. While we recognize that 
        certain circumstances, such as mandated deadlines, require 
        expedited deployment of technologies, our prior work has shown 
        that programs with immature technologies have experienced 
        significant cost and schedule growth.\13\
---------------------------------------------------------------------------
    \12\ Qualified technologies have undergone a TSA-sponsored test 
process. Approved technologies are conditionally approved for screening 
operations for a period of 36 months from the date added to the 
approved technology list while continuing to undergo further testing 
for qualification.
    \13\ See GAO, Defense Acquisitions: Measuring the Value of DOD's 
Weapons Programs Requires Starting with Realistic Baselines, GAO-09-
543T (Washington, DC: Apr. 1, 2009).
---------------------------------------------------------------------------
    Inspection resources.--As we reported in June 2010, for domestic 
air cargo, TSA amended its inspections plan to include inspections of 
CCSP participants, but the agency had not completed its staffing study 
to determine how many inspectors will be necessary to provide oversight 
of the additional program participants that would support the screening 
mandate. In our June 2010 report, we recommended that TSA create 
milestones to help ensure completion of the staffing study. TSA 
concurred and stated that as part of the staffing study, the agency is 
working to develop a model to identify the number of required 
transportation security inspectors and that this effort would be 
completed in the fall of 2010. As of February 2011, TSA officials 
stated that the study was in the final stages of review.

 TSA HAS TAKEN STEPS TO ENHANCE THE SECURITY OF INBOUND AIR CARGO, BUT 
 PREVIOUSLY IDENTIFIED SCREENING DATA LIMITATIONS AND OTHER CHALLENGES 
                                PERSIST

    TSA has taken a number of steps to enhance the security of inbound 
air cargo, as discussed below.
    TSA moved its deadline for meeting the 100 percent screening 
mandate as it applies to inbound air cargo.--TSA officials stated that 
they plan to meet the 9/11 Commission Act mandate as it applies to 
inbound air cargo transported on passenger aircraft by December 2011--2 
years earlier than the TSA administrator reported to Congress in 
November 2010. According to TSA officials, the agency determined it was 
feasible to require air carriers to meet a December 2011 screening 
deadline as a result of trends in carrier reported screening data and 
discussions with air cargo industry leaders regarding progress made by 
industry to secure inbound cargo on passenger aircraft.
    Effective May 1, 2010, air carriers were required to submit inbound 
screening data to TSA. According to TSA officials, in analyzing this 
self-reported screening data, TSA found that carriers were screening a 
higher percentage of air cargo than TSA had initially estimated. For 
example, TSA previously estimated that 65 percent of inbound cargo by 
weight would be screened by August 2010. Based on data submitted to TSA 
by the air carriers, TSA officials stated that the agency estimates 
that about 80 percent of inbound cargo by weight was screened for the 
same time period. In addition to requiring air carriers to submit 
screening data to TSA, in May 2010, TSA also required air carriers to 
screen a certain percentage of shrink-wrapped and banded inbound 
cargo.\14\ TSA officials stated that in implementing this requirement, 
air carriers determined that it was more efficient to screen larger 
groupings of cargo at the point of origin, which resulted in more than 
the required percentage being screened. Therefore, according to TSA 
officials, continued progress made by industry will help TSA to meet 
its December 31, 2011, deadline to screen 100 percent of inbound 
passenger cargo.
---------------------------------------------------------------------------
    \14\ Details on TSA's screening requirements are Sensitive Security 
Information and are not discussed in this statement. Banded cargo is 
cargo with heavy-duty metal, plastic, or nylon bands that secure all 
sides of the cargo shipment or secure the cargo shipment to a skid.
---------------------------------------------------------------------------
    TSA is working with foreign governments to draft international air 
cargo security standards and to harmonize standards with foreign 
partners.\15\ According to TSA officials, the agency has worked with 
foreign counterparts over the last 3 years to draft Amendment 12 to the 
International Civil Aviation Organization's (ICAO) Annex 17, and to 
generate support for its adoption by ICAO members. The amendment, which 
was adopted by the ICAO Council in November 2010, will set forth new 
standards related to air cargo such as requiring members to establish a 
system to secure the air cargo supply chain (the flow of goods from 
manufacturers to retailers). TSA has also supported the International 
Air Transport Association's (IATA) efforts to establish a secure supply 
chain approach to screening cargo for its member airlines and to have 
these standards recognized internationally. Moreover, following the 
October 2010 bomb attempt in cargo originating in Yemen, DHS, and TSA, 
among other things, reached out to international partners, IATA, and 
the international shipping industry to emphasize the global nature of 
transportation security threats and the need to strengthen air cargo 
security through enhanced screening and preventative measures. TSA also 
deployed a team of security inspectors to Yemen to provide that 
country's government with assistance and guidance on their air cargo 
screening procedures.
---------------------------------------------------------------------------
    \15\ Harmonization, as defined by DHS, refers to countries' efforts 
to coordinate their security standards and practices to enhance 
security as well as the mutual recognition and acceptance of existing 
security standards and practices aimed at achieving the same security 
outcome.
---------------------------------------------------------------------------
    In November 2010, TSA officials stated that the agency is 
coordinating with foreign countries to evaluate the comparability of 
their air cargo security requirements with those of the United States. 
According to TSA officials, the agency has developed a program, the 
National Cargo Security Program (NCSP), that would recognize the air 
cargo security programs of foreign countries if TSA deems those 
programs provide a level of security commensurate with TSA's programs. 
TSA plans to coordinate with the top 20 air cargo volume countries, 
which, according to TSA officials, export about 90 percent of the air 
cargo transported to the United States on passenger aircraft. According 
to officials, TSA has completed a review of one country's air cargo 
security program and has determined that its requirements are 
commensurate with those of the United States. TSA considers air 
carriers adhering to NCSP approved programs as being in compliance with 
TSA air cargo security requirements, according to TSA officials. As of 
February 2011, TSA continues to evaluate the comparability of air cargo 
security programs for several other countries. TSA officials stated 
that although the December 31, 2011, deadline to achieve 100 percent 
screening is independent of this effort, the agency plans to recognize 
as many commensurate programs as possible by the deadline.
    TSA implemented additional security measures following the October 
2010 Yemen air cargo bomb attempt.--On November 8, 2010, DHS announced 
security measures in response to the Yemen incident. TSA banned cargo 
originating from Yemen and Somalia from transport into the United 
States; banned the transport of cargo deemed high risk on passenger 
aircraft; prohibited the transport of toner and ink cartridges weighing 
16 ounces or more on passenger aircraft in carry-on and checked 
luggage; and required additional screening of high-risk cargo prior to 
transport on an all-cargo aircraft. In addition, TSA is working closely 
with CBP, industry and international partners to expedite the receipt 
of advanced cargo data for international flights to the United States 
prior to departure in order to more effectively identify and screen 
items based on risk and current intelligence. Further, in December 
2010, TSA, CBP, and the air cargo industry launched a new joint 
technology pilot project referred to as the air cargo advance screening 
program to enhance the sharing of electronic shipping information to 
improve the identification of high-risk cargo. In February 2011, TSA 
officials stated that this effort is currently focused on all-cargo 
carriers and will expand to passenger carriers in the future.
    Even with these steps to improve the security of inbound air cargo, 
as we previously reported in June 2010, TSA faces challenges that could 
hinder its ability to meet the 9/11 Commission Act screening mandate as 
it applies to inbound cargo.
    TSA lacks a mechanism to verify data on screening conducted on 
inbound air cargo.--As we reported in June 2010, questions exist about 
the reliability of TSA's reported screening data for inbound cargo 
because TSA does not have a mechanism to verify the accuracy of the 
data reported by industry. In June 2010, we reported that TSA's 
screening percentages were estimated based on screening requirements of 
certain countries and were not based on actual data collected from air 
carriers or other entities, such as foreign governments. In this 
report, we recommended that TSA develop a mechanism to verify the 
accuracy of all screening data through random checks or other practical 
means and obtain actual data on all inbound screening. TSA concurred in 
part with our recommendation and issued changes to air carriers' 
standard security programs that required air carriers to report inbound 
cargo screening data to TSA. However, these requirements apply to air 
carriers and the screening that they conduct or that may be conducted 
by a foreign government, but does not reflect screening conducted by 
other entities throughout the air cargo supply chain. As of March 2011, 
TSA officials stated that current screening percentages are based on 
actual data reported by air carriers, but stated that it is difficult 
to verify the accuracy of the screening data reported by air carriers. 
Given that TSA now plans to meet the 9/11 Commission Act screening 
mandate as it applies to inbound air cargo by December 2011, it will be 
important for TSA to have complete and accurate data in hand to verify 
that this mandate is being met.
    TSA has limited authority to regulate foreign governments or 
entities.--TSA may require that foreign air carriers with operations 
to, from, or within the United States comply with any applicable 
requirements, including TSA-issued emergency amendments to air carrier 
security programs, but foreign countries, as sovereign nations, 
generally cannot be compelled to implement specific aviation security 
standards or mutually accept other countries' security measures. 
International representatives have noted that National sovereignty 
concerns limit the influence the United States and its foreign partners 
can have in persuading any country to participate in international 
harmonization efforts, or make specific changes in their screening 
procedures. Thus, TSA authority abroad is generally limited to 
regulating air carrier operations, including the transport of cargo, 
into the United States. It has no other authority to require foreign 
governments or entities to, for example, screen a certain percentage of 
air cargo or screen cargo using specific procedures.
    No technology is currently approved or qualified by TSA to screen 
cargo once it is loaded onto a unit-load device.--As we noted earlier 
for domestic air cargo, TSA has not approved any equipment to screen 
cargo transported on unit-load device (ULD) pallets or containers--both 
of which are common means of transporting air cargo on wide-body 
passenger aircraft--on both domestic and inbound aircraft. As a result, 
questions remain about air carriers' ability to effectively and 
efficiently screen air cargo bound for the United States. This is 
particularly important because, as we reported in June 2010, about 96 
percent of inbound air cargo arrives on wide-body aircraft, and TSA has 
limited authority to oversee the screening activities of foreign 
governments or entities. We will be examining these issues as part of 
our on-going review of TSA's efforts to secure inbound air cargo for 
the House Committee on Homeland Security and Senate Committee on 
Homeland Security and Governmental Affairs. We plan to issue the final 
results later this year. Mr. Chairman, this concludes my statement. I 
look forward to answering any questions that you or other Members of 
the subcommittee may have.

    Mr. Rogers. Thank you, Mr. Lord. We appreciate your 
testimony. Both of you have taken the time to be here.
    At this time, without objection, there is unanimous consent 
to insert into the hearing record a statement from the 
Airforwarders Association regarding on-going efforts to secure 
air cargo and its recommendation.
    Ms. Jackson Lee. No objection.
    Mr. Rogers. That is excellent. So inserted.
    [The information follows:]
    Letter Submitted for the Record by the Airforwarders Association
                                                     March 9, 2011.
The Honorable Mike Rogers,
Chair, Subcommittee on Transportation Security, Committee on Homeland 
        Security, U.S. House of Representatives, Washington, DC 20510.
The Honorable Sheila Jackson Lee,
Ranking Member, Subcommittee on Transportation Security, Committee on 
        Homeland Security, U.S. House of Representatives, Washington, 
        DC 20510.
    Dear Chairman Rogers and Ranking Member Jackson Lee: The 
Airforwarders Association (AfA), the voice of the freight forwarding 
industry representing over 300 dues-paying member companies with 1,260 
facilities and 6,300 employees, respectfully submits the following 
comments in advance of the March 9 hearing on air commerce. Our members 
include a broad range of businesses including both multinational 
logistics companies with hundreds of employees and facilities as well 
as small, ``mom and pop'' operations with a single facility.
    We applaud the committee's dedication to active oversight of TSA 
and engagement of industry stakeholders. The recent 100% screening 
deadline for domestic cargo was a monumental achievement for homeland 
security and was achieved through the hard work of all in the industry, 
supported by TSA and Congress. As the next Herculean task is now at 
hand, it is perhaps even more important that this committee continues 
to work collaboratively and innovatively with TSA, CBP, and 
stakeholders.
    In December 2010, the Transportation Security Administration 
announced that, due to the recent bomb plots originating in Yemen, all 
international in-bound air cargo on passenger flights must be screened 
by December 2011. This announcement was a notable departure from 
previous estimates provided by TSA; with key administrators including 
today's witness, John Sammon, stating that screening would not be 
possible until 2013 at the earliest.
    The Airforwarders Association is committed to improving aviation 
security and understands that the seriousness of the recent threats 
necessitates a change in TSA policies. It is this commitment to 
ensuring real security--both physical and economic--is provided that we 
urge the committee to examine a few areas of particular importance. 
With today's hearing, it is our hope that you will be provided 
satisfactory answers to updates on domestic screening, progress on 
international screening, and the nature of the plan in place to achieve 
screening by the deadline proposed.
    These areas of concern are:
    Harmonization of Screening and Security Programs.--TSA has worked 
diligently with our international partners to reach agreements on 
security protocols. However, this multilateral diplomatic effort is not 
swift enough to include the majority of cargo passing through the 
global supply chain en route to the United States.
Recommendations:
    1. TSA should continue to aggressively review existing security 
        programs, including screening technologies and policies like 
        Known Consignor, and identify points of commonality to 
        streamline the international screening process. TSA should 
        approve other nation's security programs and immediately list 
        the locations where a level of security commensurate to 
        domestic cargo screening can be verified.
    2. TSA must be directed to harmonize security standards and 
        programs. For example, several European nations are using 
        pallet-screening technologies that have met security standards 
        within their nation. These methods should be recognized and 
        approved by TSA for a limited duration of time leading up to 
        and beyond the 2011 deadline to ensure cargo continues to move 
        efficiently through the supply chain.
    3. We encourage Congress to be vigilant in their oversight, and 
        regularly review both progress and policy details as agreements 
        are reached. Industry feedback would be particularly valuable 
        to evaluating the progress, efficacy, and unforeseen impacts of 
        reaching such an ambitious goal in such a short period of time.
    Harmonization of Passenger and All-Cargo Security Programs.--While 
the volume of international cargo carried by all-cargo aircraft and 
integrated carriers is considerable, this should not be an excuse for 
developing two distinct and separate levels of security for cargo. As 
learned in Yemen, cargo is a target, regardless of the type of aircraft 
it is flying.
Recommendations:
    1. TSA should continue to work on the existing pilot program in 
        place internationally to obtain data manifest information, and 
        participants should be expanded to include the full universe of 
        air carriers and forwarders rather than just all-cargo 
        aircraft.
    2. The working groups established by TSA should be made permanent 
        and carry reporting requirements in their charters. These 
        groups include participants of both passenger and all-cargo 
        operations and facilitate dialogue that will surely improve 
        aviation security.
    3. Screening should include the methods being explored by CBP and 
        the pilot program. We suggest that data mining and risk 
        targeting be included in the definition of screening, as 
        defined in the ``Implementing the Recommendations of the 9/11 
        Commission Act.''
    Defraying Costs of an Unfunded Mandate.--It is widely believed 
within the industry that the cost of international screening will be 
borne by air carriers and forwarders, as it was with domestic 
screening. Indeed, to accomplish 100% international screening in a 
year, it seems inevitable that carriers, forwarders, and shippers will 
bear additional responsibilities and costs to conduct screening prior 
to loading with no financial assistance from TSA or Congress.
Recommendations:
    1. Congress should direct GAO to work with TSA and the industry to 
        prepare a report on the state of the industry no less than 6 
        months after the December deadline. A full report detailing the 
        economic impact on industry, areas of concern as well as areas 
        for improvement will assist in ensuring that Congressional 
        intent--providing a more secure air cargo environment without 
        disrupting commerce--has been achieved with the existing 
        programs and technology.
    2. Funding for industry-led screening initiatives should be 
        provided, be it through low-interest loans, grants, or tax 
        incentives. Without this funding, U.S.-based air carriers 
        transporting cargo to the United States are at a distinct 
        competitive disadvantage, in terms of time for screening and 
        additional costs passed on to the shipper due to screening.
    The Airforwarders Association looks forward to continuing our 
dialogue on these issues with the committee. The Airforwarders 
Association is the only dues-based association that represents the full 
spectrum of the forwarding industry and regularly polls our membership 
to assess a true sense of the issues that affect forwarders.
                                             Brandon Fried,
                                                Executive Director.

    Mr. Rogers. Now, we are going to move to our normal 
question time. I will start with me and then we will alternate 
between each side 5 minutes apiece in the order that Members 
were here to follow the gap.
    First, Mr. Lord, you just talked about achieving 100 
percent cargo screening of in-bound cargo but that was just on 
passenger planes. Am I right?
    Mr. Lord. Yes, sir.
    Mr. Rogers. Okay. That is not anywhere close on cargo. Just 
air cargo planes?
    Mr. Lord. Yes. The 9/11 Act mandate only pertains to cargo 
moved on passenger aircrafts. There is no 100 percent screening 
requirement related to all cargo.
    Mr. Rogers. Do you have any idea? If you don't, that is 
fine. But do you have any idea of what percentage of air cargo 
that is not on a passenger plane is being screened at present, 
both domestic and in-bound foreign air cargo.
    Mr. Lord. I have a general estimate in our June report, we 
estimated there is about 18 to 19 million pounds are moved a 
day on passenger aircrafts. That represents about 20 percent of 
the total. So just doing the math, about 90 million pounds are 
moved each day on the--in all cargo--you know, non-passenger 
aircrafts. So the bulk of the cargo is moved on all-cargo 
carriers that are not subject to the 9/11 Act requirements.
    Mr. Rogers. Right. A few minutes ago in your opening 
statement, you talked about how many pounds were being moved. 
But how many packages that are crates or whatever they have 
shaped in?
    Mr. Lord. You know, I don't know. The way they measure how 
much is moved is by weight, so it is not broken down in terms 
of pieces. Perhaps Mr. Sammon would have a ballpark estimate. I 
certainly don't.
    Mr. Rogers. Do you, Mr. Sammon? Put your microphone.
    Mr. Sammon. I don't have an estimate with me but we can get 
one for the committee in terms of----
    Mr. Rogers. Yes.
    Mr. Sammon [continuing]. The pieces. It varies by segment 
of business. The all-cargo folks will have much heavier weight, 
fewer pieces. Federal Express, UPS will have--they have about 
25 percent of the weight but their piece--low. It is probably--
maybe half over.
    Mr. Rogers. Okay. Thank you very much.
    In line of the recent air cargo bomb threat originating out 
of Yemen, can you provide an update to this committee on the 
work that TSA has done over the last 4\1/2\ months to secure 
international airborne cargo? Obviously, you have made great 
strides and you think you are going to get that target. Can you 
describe for us what you have done, Mr. Sammon to have that 
success?
    Mr. Sammon. Well, we have--first of all, in Yemen, we have 
had a team who have traveled to Yemen to provide screening and 
training assistance to the Yemenis, offer of screening 
equipment, to test their screening equipment, to calibrate it 
but spend time with Yemenis to actually have cargo screened.
    In addition to on-the-ground work, we have put in specific 
security protocols for cargo coming out of Yemen, still 
concerned in terms of the level of activity and terrorist 
activity in Yemen, and so there are specific protocols in place 
for Yemen.
    Beyond Yemen, we realized that this threat is not confined 
to that one country. Many more countries, these folks have 
affiliates and friends throughout the Middle East, North 
Africa, Europe, South Asia that we have been working closely 
with the air carriers. I personally have been leading efforts 
to work with the carriers to focus on how we stop the next 
attempt.
    The goal we have started everyone of those conversation is 
that we don't want to lose a plane. It is a common goal, it is 
the Government's goal, it is their goal, and it is not imposed 
regulatory exercise. It is something that we have to figure out 
how we do that.
    We have developed with our intelligence people and carriers 
a series of protocols. Those protocols were published last 
Friday to carriers and secured WebBoards, become effective this 
coming Thursday. But we do think it is--they are just both 
focused, measured, and directed to what we perceive to be the 
current intelligence-based threat.
    Mr. Rogers. Great. Mr. Sammon, I understand that the latest 
version of TSA's security directive and emergency amendment 
related to the Yemen cargo incident will go into effect 
tomorrow at March 10. I know that TSA has worked very hard and 
collaboratively with industry stakeholders such as UPS, FedEx, 
and DHL to develop a meaningful security directive to address 
the current threat environment in a manner that makes sense.
    Yet I am being told by some in industry that the latest 
version of the security directive and emergency amendment is a 
bit confusing to understand and subject to different 
interpretations by different private sector entities. Can you 
explain or offer some reasoning as to why the version is 
confusing? Will TSA be working with industry in the coming days 
to revise that?
    Mr. Sammon. Again, we have--the amendment has it--or the 
security directive as it went out, first of all, we did 
separate mails--upon request to the mail, upon request to 
carriers. There is a security directive, which applies 
specifically to mail. That was again at the request of the 
postal service and the carriers who handle auto-mail.
    Next is that these directives are actually legal documents. 
So again, they are not--in all these security directives, the 
easiest things the world understand because they are basically 
have to serve as a legal regulatory document.
    We have hosted a--Doug Brittin is our General Manager of 
Air Cargo, call us with the passenger carriers and the postal 
service on Monday. We have hosted--we have published--we have 
put them on the WebBoard on Friday night and we can read it 
over. Monday, we had a call at PASMA carriers. In the postal 
service, we had a call of the all-cargo carriers yesterday. We 
will have another call, I think----
    Mr. Rogers. If you have the conference call, you may insert 
it.
    Mr. Sammon. Okay. Yes, sir. It was upon invitation of the 
ATA or the Cargo Aircraft Association, and so we are going 
through this.
    In this document, it is designed to be very specific. It is 
not just go screen everything. We are trying to get very 
specific in it and there are references to things that we need 
to explain and we are going through in developing aids that 
will describe in a flowchart how that actually works. But the 
legal documents are--they are somewhat painstaking to read. I 
don't disagree with the folks but we are taking the time.
    Mr. Rogers. Yes. Well, I am glad to hear the detail. I just 
want to make sure that, you know, when it is read, the person 
knows exactly the message is being communicated and it is not 
subject to really much interpretation or variance and 
interpretation.
    My time is up. I yield to Ranking Member Ms. Jackson Lee of 
Texas.
    Ms. Jackson Lee. Chairman, thank you very much. For the 
witnesses, again thank you for both of your service and your 
testimony.
    Mr. Chairman, while I am--before open hearing, I wish to 
offer my sympathy to the U.S. Marshals Service that encountered 
an incident last 24 to 48 hours. We understand that one of the 
U.S. marshals did not survive, and I offer my sympathy to their 
families and wounded families, local officers and to all those 
who serve in the National service, which we are greatly 
indebted to.
    I appreciate that there is a lot of hard work that is going 
on on-air cargo screening. I think the GAO provides enormously 
valuable service. It helps us that it raises some enormously 
serious questions.
    Let me, Mr. Sammon, go to you on the question of 
certification of the airline industry on in-bound flights and 
how comfortable we are with the protocols that are in place for 
certification now.
    Mr. Sammon. That is a----
    Ms. Jackson Lee. This is a self-certification.
    Mr. Sammon. That is a very good question. The issue as we--
in my statements, we talked about our authority and our ability 
to inspect. In the United States, we have broad and we are 
vigorously exercising that.
    Overseas, we are relying upon people certifications and 
statements as to what they are doing. It is very difficult. 
There are a number of countries who have country programs. We 
are certifying, approving. I will say we are a handful now and 
we are going to continue but that risk will grow. In that case, 
you will have a government inspector who will be inspecting the 
carrier's activity according to program which is either the 
same or very similar to our standards, but absent those country 
certifications were based on someone's statement.
    Ms. Jackson Lee. Let me be clear, absent countries or 
absent a way to confirm airline certification. Are you saying 
you want an extra level of oversight where the countries are 
engaged given the inspector process?
    Mr. Sammon. Yes, ma'am. What we found in the United States 
is unless our inspectors are in that facility and see what is 
going on and able to observe specific records in that facility, 
you really don't know what is happening to be able to certify 
that it is all being screened. Yes, ma'am.
    Ms. Jackson Lee. To follow up, how much cargo screening is 
going on at the large gateway airports? Do you believe airlines 
are still at the 80 percent level?
    Mr. Sammon. That is the figure that has been reported on a 
monthly basis that they are reporting. Now, we have found--in 
going through this process, and I think as Chairman Rogers 
alluded to with security directors that people are--we are 
finding that the questions referring back to their existing 
programs, they may not be doing all of the things we thought 
they were doing.
    Ms. Jackson Lee. Well, let me quickly move to Mr. Lord. 
Your last words were, ``We need technology, intelligence stamp. 
Define policy and procedures and oversight.'' Does it trouble 
you that we are dependent upon self-certification on in-bound 
cargo coming in? What are you seeking to when you walk for 
those five bullet points?
    Mr. Lord. In terms of the in-bound issue, I think it is 
going to be exceedingly difficult to set up a system to screen 
that cargo. So the fallback is you mutually recognize other 
countries' programs that is providing a commensurate level of 
security. TSA, to your credit, they are working that angle as 
well. So it is just a fact of life.
    Ms. Jackson Lee. If we don't have treaties or corporation 
or the ability of our officers to go in or ability to assess 
the kind of trained inspectors that are in France, Germany, or 
anywhere else, isn't that a problem?
    Mr. Lord. Well, it is a problem if you don't have access. 
The good news is that air cargo flow is heavily concentrated in 
20 countries. So if you establish some sort of treaty or system 
to ensure that cargo is screened, you are dealing with about 90 
percent of the problem.
    Ms. Jackson Lee. So you think we at least leave that kind 
of cooperative treaty that would include the opportunity maybe 
for our officers to select three inspects or to have an 
inspection over a number of months or some involvement of our 
TSO officers?
    Mr. Lord. It is a very sensitive issue. Obviously, there 
are some sovereignty concerns. Foreign governments are raised. 
So I know TSA is working this angle as part of their inspection 
program.
    Obviously, if you can conduct joint inspections, that would 
work effectively, or if you could be involved in some capacity. 
But foreign countries in general, including our friends in the 
European Union are very sensitive about given the appearance 
that we have access a full regulatory authority in our market.
    Ms. Jackson Lee. I understand that. Let me just quickly say 
this. Mr. Sammon, if you can just give me a yes or no. We have 
had some perimeter questions, intrusion on perimeter in terms 
of incidences. Do you think we need to begin to look at the 
perimeter security of airports?
    Mr. Sammon. Yes, ma'am. We are doing a--setting standards 
where the best practice standards for perimeter security and 
doing a review of airports to see where they are. There is a 
wide variety of technologies at JFK and New York. They are 
spending a lot of money on radar detection systems that they 
can detect whatever is at the perimeter.
    At other airports, they have installed a wire they called 
guillotine wire that as they try to drive to the fence, it 
basically takes the car off. There is a wide range of--and some 
places do not very good and they just have a fence.
    So but we will--your question is extremely appropriate. 
There is not a common understanding of what are all of the 
standards in place, what should the standard be, and how 
specific airports relate to that standard. A very good 
question.
    Ms. Jackson Lee. I yield back. Thank you, Mr. Chairman, for 
your indulgence.
    Mr. Rogers. Thanks, Ranking Member.
    My colleague and friend from Alabama, Mr. Brooks, is 
recognized for 5 minutes.
    Mr. Brooks. Thank you, Mr. Chairman. Mr. Sammon and Mr. 
Lord, I am going to ask questions but feel free to volunteer, 
they're directed to both of you and whoever wishes to field 
that, go ahead and please do so.
    What percentage of incoming international passenger planes 
carry cargo shipments in their holds?
    Mr. Sammon. In some fashion, from a single box to a large 
pallets and--virtually--I would say virtually all.
    Mr. Brooks. That being the case, how long in your judgment 
will it be before TSA has arranged some kind of system or 
agreement by which all of the cargo coming into United States 
on passenger planes has been adequately screened?
    Mr. Sammon. I think that is the issue that we are 
discussing here in terms of whether it is self-certification 
and how well you can verify it. I think that is why, in my 
statement, I had the discussion of our own program and the 
inspection and compliance aspects of it. We find that the 
majority of folks, the large percentage of people all right are 
complying with the program and doing what they want. Some are 
misunderstood or confused and there are other who were out 
like--outright trying the cheaper programs.
    So we have a wide range and unless you can inspect on the 
ground, it is very difficult to get--to be able to come back to 
this committee and say I know that 100 percent is screened.
    Mr. Brooks. Well, do you have a judgment as to how long it 
will be before TSA has a process in place by which 100 percent 
of all incoming cargo on international passenger flights is 
screened?
    Mr. Sammon. So what we have done right now is we have out 
for comment that very issue in front of the carriers to see the 
feasibility from the carriers. We are reviewing our comments 
and we will be examining those comments and making a 
determination on that to get that very answer because there has 
to be the carriers and host governments who actually has to do 
the screening. TSA personnel will not be doing the screening 
overseas.
    Mr. Brooks. Fair to say then that as of now you have no 
judgment as to when we will be in position to safely screen all 
cargo and incoming passenger flights?
    Mr. Sammon. I think we have to digest those comments and 
assess the feasibility because two issues are----
    Mr. Brooks. My question is really a yes or no.
    Mr. Sammon. Yes.
    Mr. Brooks. As of now, you have no judgment as to when?
    Mr. Sammon. Yes. Right.
    Mr. Brooks. All right. Thank you.
    You mentioned something about who will actually be doing 
the inspections of cargo coming in from overseas. If I 
understood you correctly, you said that there would be no TSA 
personnel involved in that process?
    Mr. Sammon. TSA personnel do inspections today upon 
invitation in cooperation with the host government. Generally, 
that involves the entity being aware of these inspections. So 
if--you know, today you are going to be inspected, things might 
look just fine. Tomorrow might be a different story.
    Mr. Brooks. How much of the in-coming cargo international 
passenger flights is now being screened by TSA personnel?
    Mr. Sammon. None is being screened by TSA personnel.
    Mr. Brooks. How comfortable are you with that situation?
    Mr. Sammon. That is why we are working with the countries 
diligently to try to get in place specific approvals of their 
programs that will be comparable to our standards. That takes 
time, and we believe that it is a timely process. That is why 
we have asked the carriers for comments to see what their 
opinion of that is because the carriers are the ones who 
actually will have to screen the cargo--either the carrier or 
the host government.
    Mr. Brooks. My question is: How comfortable are you with 
that situation?
    Mr. Sammon. I am not comfortable with that. I know that I 
can look at you in the eye and say it is all being screened 100 
percent.
    Mr. Brooks. I yield the remainder of my time, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    Mr. Richmond is recognized for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman and Ranking Member.
    Let's go back to that--from where my colleague just left 
off and in terms of how comfortable you are with either the 
carrier or the host country. I guess, what I would like to know 
in your opinion, do you think the world is there on their part 
to reach our same goal which is 100 percent screening?
    Mr. Sammon. I think it is in many countries. For instance, 
the European Union has a program very similar to our program--a 
supply chain-based program but they have a 3-year window in 
terms of getting other countries on--who are members of the 
European Union up to that standard. So they are in a different 
time frame than the end of this year.
    Mr. Richmond. Another question that was already raised with 
the perimeter security and you said that just setting standards 
for perimeter security, what about once you enter the confines 
of an airport in terms of security around a passenger plane or 
that immediate area in the same security that would be around a 
cargo plane because most of the time, when they are in a 
different part of the airport to strictly cargo planes?
    Mr. Sammon. Yes. But in terms of the security or the 
personnel background check, badges and whatever they should be 
comparable. The question, I think, is: How secure is the fence? 
Can people throw things over the fence? Do people have access 
through the fence--openings? There are vendor deliveries 
through the fence and that is an issue, I think, that may vary 
airport-to-airport, and I think that is one thing we want to 
have awareness of and have standards so we know what should be 
in place.
    Mr. Richmond. So you would wanted to vary airport-to-
airport but you are comfortable in saying that it is consistent 
within the airport with cargo and passenger planes?
    Mr. Sammon. The standards are consistent. Yes, in terms of 
the requirements for airport perimeter security, they are not--
there isn't a standard requirement. So we are looking at it as 
what are the best--we have just completed a survey with the 
Homeland Security Institute in terms of what are the best 
practice perimeter requirements.
    Some of these are very expensive, some of these are low-
cost and what we are doing is looking at that and then 
measuring the airports and assessment by the airports to say 
where do I stand vis-a-vis these elements of security. 
Perimeter security is one of them.
    Then to go back to say what are the gaps and we may come 
back to this committee and say, here is what we see, here are 
various airports that meet the standard and here are a number 
of the don'ts, and how do you think we should see with that to 
fix it. That is a very good question.
    Mr. Richmond. What about cockpit security in terms of cargo 
planes? I know in our passenger planes that we have gone 
through just more enormous tries to make sure that it is safe.
    On cargo planes, do you have the same strictly secured 
cockpit on pallets? What do we have on?
    Mr. Sammon. It varies. Some are air carriers have just put 
it in and some has not.
    Mr. Richmond. So for at least domestic or United States, we 
don't have a standard--we don't have a rule.
    Mr. Sammon. There is not hardened cockpit door requirement. 
Again, the current requirement that is in place for the 
passenger carrier is put in by the FAA but they are going to--
the security issue as you--you are getting to which is proper. 
But there is not a standard for cargo aircraft in terms of the 
door's security. No, sir.
    Mr. Richmond. But many times, the cargo planes are 
transporting things that require human escort. So you will 
passengers on a strictly cargo plane.
    Mr. Sammon. Yes, sir. There are--each cargo operator has a 
cargo security program and those kinds of situation, I think we 
will say live animals, horses, whatever else----
    Mr. Richmond. Right.
    Mr. Sammon [continuing]. Have trainers and attendants and 
so on and so forth. But there are specific protocols they need 
to follow for those situations, yes.
    Mr. Richmond. Do you think that is something we need to 
address in terms of making sure that those cockpits are 
secured?
    Mr. Sammon. It has been an issue we have had with the 
conversations with the industry over the years. At this point 
in time, we don't have it at the highest point on our focus at 
this point in time but it is certainly something that comes up. 
Again, the fact that certain carriers have felt that it is a 
necessary thing and others haven't had a wide range of opinions 
on that.
    Mr. Richmond. Those that don't have it, are they required 
to have a security personnel on the plane or----
    Mr. Sammon. There are again security protocols, and I don't 
want to give them ideas in terms of what they are but specific 
security protocols in terms of what they are required to do in 
terms of securing the aircraft and the contents that they are 
flying.
    Mr. Richmond. Mr. Sammon, thank you for your answers.
    Mr. Lord, I apologize that I didn't get any to you.
    I yield back, Mr. Chairman.
    Mr. Rogers. Thank you, gentlemen.
    Mr. Lord, I noticed you will say something in response to 
Mr. Brooks' inquiry a little while ago.
    Mr. Lord. Yes, I did. Thank you for the opportunity. In 
terms of perimeter security and access, we issued a major 
report in September 2009, which addressed this issue. The basic 
point we raised in our report was we recommended that TSA do a 
better job of assessing the nature of the problem at the 
Nation's airports.
    When we first went--started the engagement, we asked, 
``Well, how big is the problem? And where does it vary?'' They 
weren't able to answer the question. We asked, ``Have you 
completed a vulnerability assessment?'' which basically shows 
you why you are weak, and we found only 13 percent of the 
airports we have looked at had completed a vulnerability 
assessment, which basically shows you, you know, where the 
problem areas are.
    So in our report, we recommended and to TSA's credit, they 
agreed with our recommendation to do a better job of studying 
these airports to determine where the weak points where in 
terms of perimeter access and security.
    Mr. Rogers. Do you have an idea as to when they might have 
that study complete?
    Mr. Lord. No, they did not, and we will continue to monitor 
that as we do with all our report recommendations. But I mean, 
it is a basic question that difficulty answering, you know, 
where are you weak by airport. Most of the airports did not 
have a formal, what we call, a joint vulnerability analysis.
    Mr. Rogers. Mr. Sammon, how are you addressing that? Is 
that something you are just charging each airport for to have 
done on their own dime or what?
    Mr. Sammon. What we are doing right now is we--and we 
retained Homeland Security Institute to do the complete 
assessment of study that is about over 100 airports compiling 
what are the best practices for--how you do secure the 
perimeters? We are creating a tool to do evaluation airport by 
airport and to go back, in that way we will have, as Mr. Lord 
is recommending, a standard or baseline of knowing what is out 
there, what are the gaps? Not only what are the gaps, but how 
people have approached that problem and done in the best 
practice way as we----
    Mr. Rogers. I noticed--on the same question, I will ask--
Mr. Lord, I want to ask you do you have a time line?
    Mr. Sammon. The time line--I believe the initial assessment 
in terms of the practice is complete, I believe the assessment 
tool is going out next month or so, so hopefully by the end of 
the year, we will have a better assessment of where this stand.
    Mr. Rogers. Is this something you are doing in concert with 
the Airport Executive Association?
    Mr. Sammon. Yes, completely. For instance, one use of this 
will be, I think, in terms of pointing out that those 
vulnerabilities as airports apply for FAA funds were physical 
improvements. This would be an excellent way to use that--to 
get these things improved.
    I think one of the more dangerous or misleading phrases I 
have heard post-9/11 talking about airport security people say, 
if you have seen one airport, you have seen one airport. I have 
heard that a million times in the security, it is ridiculous 
because there are standards, processes, protocols that are--it 
doesn't matter where you are. We ought to be able to compare 
LAX to O'Hare to JFK for those kinds of standards that you are 
asking about.
    Mr. Rogers. Excellent.
    Now, when you talked just about air cargo planes and no 
passengers, I know that there has been an effort to 
dramatically increase the percentage of that cargo that is 
being screened. I know that this committee has worked with your 
Department to make sure that energy as primarily focused on 
intelligence-driven, risk-based efforts but still there are 
many who are planning for 100 percent screening of that air 
cargo.
    Tell me where you are in that area of your responsibilities 
and what do you think is realistic, and what are some of the 
means by which we can achieve 100 percent if it is physically 
possible?
    Mr. Sammon. Okay. I think--again, as I stated, in terms of 
where we are going with this whole process, I personally have 
been dealing with all the carriers, dealing with the carrier 
calls, coming up with solutions, briefing the Secretary, 
briefing the White House, briefing various other parties.
    Basically, al-Qaeda in the Arabian Peninsula is a clear war 
on U.S. aviation. They fired the first two shots December 2009, 
the cargo plot October 2010. So we are in the deadly serious 
fight. It is no longer hypothetical. It is real.
    So what--the question is: Do we push everybody to screen 
everything everywhere, or do we try to focus on what we really 
think they are coming at?
    On the protocols we are rolling out, and I would love to 
brief your committee in a private session of where the 
intelligence--the discussions for the carriers, what we have 
come up with, and why because what we are trying to do is 
actually look at if not from a--we do this for passenger, we do 
this for cargo. Here is the problem regardless of whether it is 
passenger, it is all cargo, it is express carrier, it is mail. 
We are trying to deal with it that way regardless of the way 
people try to introduce into the stream.
    So I guess, the question is and that we are getting 
feedback from the carriers in terms of our--as I said, for the 
100 percent, we did ask for comments. One thing in the comment 
is: Do you want us to do everything, or do you want us to focus 
on the real problem--the tactical problem we have right now 
with people we are trying to take down aircraft? So I would say 
that that is the issue, I think, we are facing with.
    That is real. We have to deal with it. We have to make sure 
that whether it is UPS, or whether it is American Airlines, or 
whether it is Federal Express that we have protocols in place 
so we don't lose a plane. That is the big issue we have.
    Mr. Rogers. Yes. To what extent do you--and you know what 
extent but to what extent do you think canines are being used 
in air cargo screening and how effective are they?
    Mr. Sammon. So in the United States, I would say about 17 
percent of the cargo that has been screened has been screened 
by K-9s. K-9s are very flexible and versatile, particularly for 
pallets and individual packages also.
    Overseas, there are programs--E.C., European Commission. 
European Union has a set of standards. They have approved, I 
believe, about six countries that have met those standards and 
we have--we are recognizing those also. But I think, 
particularly for larger skids and things like this, the K-9s 
are a very effective tool.
    I think they--we think highly of them. We have 120--about 
130 teams right now that are dedicated to cargo because we 
think that is a--K-9s are effective.
    Mr. Rogers. Great. Thank you very much.
    Ms. Jackson Lee. Let me ask--the gentleman ask one more 
thing, and this is for both of you. You are very interested and 
I know I am very interested and several other Members on the 
committee talked to me about their interest in trying to prove 
a way needless and unnecessary rules and regulations.
    In your discussions with your private sector counterparts--
our partners rather: Do you find that there are some particular 
things that we can work to eliminate as far as redundancies are 
antiquated regulations or rules that will make their lives 
simpler and therefore like to spend more time on the stuff that 
really needs to be done?
    Mr. Sammon. We have--just in general, we do continuously--
we engage with the carriers, have a working group that is 
involved and specifically getting rid and kind of taken out the 
spring cleaning and taking out the old stuff and trying to 
clean up what is relevant. I think again the old issue here is 
given our ability to inspect overseas and given our focus in 
terms of what people are actually trying to do is going forward 
here is we focus on specific things or do--and do everything, 
and that is really the big question at--before the House here.
    Mr. Rogers. Mr. Lord, have you found anything in your 
review of the Department that would leave you--leave the best 
in pruning to do?
    Mr. Lord. Sure. In some of our past reports, although I 
have to give TSA credits for addressing that, we found at least 
in the early years, TSA would announce a security directive and 
it would never sunshine. It would still be on the books even 
though the carrier industries thought there was no additional 
need for it or needed to be modified.
    But under the current process as Mr. Sammon described it, 
they have regular meetings with industry where they revisit the 
need for the security directives and that has effectively 
proven to--some on the regulation.
    Although in terms of redundancy, I find when you are 
discussing sensitive security issues, sometimes it is okay to 
have some redundancy in terms of the actual layers. In case you 
miss something on one layer, you may pick it up on another 
layer. So on the security side, that is okay.
    But at the same time, when you mentioned a need for 100 
percent screening of all cargo, I think it is very important to 
also assess the effect on commerce. Obviously, there is a 
tension there. You could require very rigorous screening but if 
commerce come screeching to a halt, you know, that would be 
problematic, so you have to really decide where do you draw the 
line. It is a delicate balance----
    Mr. Rogers. That is the question the way I framed it, you 
know, is in fact realistic. You know, as many on this committee 
realized I am a big believer that canines are going to be the 
only way that we ultimately ever to achieve anything close to 
100 percent screening of air cargo so quick. It is an expensive 
and it is effective, and it allows us to then spend the bulk of 
our energy on risk-based intelligence-driven searches of things 
that we need to be focused on.
    You know, if Acme Widget Company is sending a crate of 
widgets so they have been sending them every 3 days for 30 
years, we have put a lot of attention on that crate from Acme 
Widget Company.
    But this guy that walks up from Yemen with cash and buys a 
one-way ticket, you know, puts--or send it by the--pays to send 
$100 printer to United States and it cost $200 of shipping 
cost, we kind of not want to focus on that. That is all.
    Mr. Sammon. I agree. I totally agree, sir.
    Mr. Rogers. Thank you. Now, I recognize Ranking Member.
    Ms. Jackson Lee. I am going to put on the record several 
questions and if you can give me as quick an answer that is 
accurate as possible. I guess, I would just comment that in the 
world of security, we live in a far more difficult structure 
and have less latitude to talk about where regulations are not 
valid.
    I think it is important when the agency itself 
constructively looks back what maybe, if you will, a regulation 
that has been utilized sufficiently and there is stark and non-
debatable evidence that we don't need to move in that direction 
anymore.
    I would be very cautious in the security business to talk 
about what we might and might not be able to live without. So I 
think it is valid. The Chairman has made a point that we 
streamline to the extent that we know that works and does not 
work.
    My questions travel along those--that line of reasoning.
    To you, Mr. Lord, in your testimony here today, do you 
think there is about 80 percent of screening on in-bound and 
that is where you suggested the elements of technology 
intelligence that define policies, and procedures, and 
oversight, but you said the 20 percent was troubling. If you 
can just hold the question, I am going to put out several 
questions and I would like you to start with that one first.
    Mr. Sammon, one of the continued date in front of us is 
December 31, 2011 of which you believe that you will meet 
dealing with 100 percent cargo on in-bound passenger aircraft. 
What is your time line for reviewing industry comments and 
making a final determination? What rule--excuse me--what role 
is the DHS Office of Private Sector playing in the process?
    Very quickly then, in addition, TSA has been criticized. 
One of the issues that we--let me just change that. One of the 
issues that is important to me is working with science and 
technology. Particularly, as we work with these certified 
screening facilities here in the United States, so to what 
extent do you feel that you have worked with the most 
sophisticated level of technology and to what extent are you 
comfortable with the certification of your outside cargo 
screeners?
    Then last, to you, Mr. Lord, you had reported last time a 
concern with TSA's resources for inspecting and otherwise 
verifying that the private sector is effectively conducting 
screening through the CCSP program. Does TSA now have enough 
inspectors, regulatory administrative personnel, and is that 
reflected in the President's budget request for fiscal year 
2012?
    Why don't I start with Mr. Lord on those two questions?
    Mr. Lord. Sure. Your first question pertaining to 20 
percent----
    Ms. Jackson Lee. You are troubled?
    Mr. Lord. Yes, I was troubled because the 20 percent 
includes all the difficult items to screen. It includes 
perishables, fresh produce, sealed pharmaceutical containers, 
household appliances that are banded, or large items that are 
shrink-wrapped or banded. So how did you screen these items if 
it is originating not only in the last point of departure but 
in another city that TSA literally has no access to? So that, 
to me, is going to be challenging to do.
    TSA reports that their deadline is for the new 100 percent 
of the in-bound is December of this year, and to me that is not 
a lot of time. I think it is important to note TSA has received 
over 100 comments on this new deadline. So obviously, industry 
have some concerns about being able to do this by December.
    I can't reveal what the comments are that as sensitive 
information, but there has been a large volume of comments 
submitted on this new proposed move.
    Ms. Jackson Lee. So that 20 percent is sufficiently of 
concern. It may have an impact on securing the homeland.
    Mr. Lord. Well, it is a--I am not saying they can't do it, 
but another issue we haven't discuss is I am also concerned 
about a possible mode ship. This is cargo shipped on passenger 
aircraft that you make it too difficult or too expensive to 
screen cargo on passenger. It could be a shift to the old cargo 
mode. The question I would go to, are you any safer if shippers 
simply transfer to the old cargo mode to the extent that is 
possible?
    Ms. Jackson Lee. Then, are there resources?
    Mr. Lord. The resources--I am glad you raised this, madam. 
This is something an issue we have been looking at for a couple 
of years. We made a recommendation to TSA many, many months 
ago. We thought that it is important that they complete an 
analysis showing how many inspectors they would need to cover 
this new business model when you have all these new entities 
helping with the screening.
    TSA still reports that they are in the process of preparing 
the studies. We are getting a little impatient. I would like 
to--you know, in general, like how to be patient. But I think 
this study is needed to show how many additional inspectors you 
need to provide adequate oversight as I indicated in my closing 
remarks.
    Ms. Jackson Lee. So you think--what you said that--what is 
your comment on the individual proposed budget coming forward 
either here in the House or the President's budget?
    Mr. Lord. I have no basis to judge whether it is a number 
of inspectors that are seeking the--they want support of what 
funding is too many about the right amount or too few. I am 
seeing the supporting analysis to judge.
    Ms. Jackson Lee. Either report from TSA?
    Mr. Lord. Yes.
    Ms. Jackson Lee. So why don't you jump in, Mr. Sammon, and 
take that one and the other two questions that I asked you?
    Mr. Sammon. That is a very good question, and I will just 
use some simple math. In terms of the total number of the CCSF, 
the certified cargo screening facilities, are just under 1,200. 
There are about 500 or so airport cargo handlers. So if you 
went to a large airport and there are people that will screen 
either the airline they are screening or they are screening for 
the airlines.
    So their total about 1,700 facilities. We have 500 
inspectors plus 110 inspectors with a dog. So we have for 1,600 
facilities 610 people. I think that we should be able to make 
their rounds. We have conducted with our current people, just 
on the CCSFs 6,000 inspections.
    So I think it is pretty well--originally, we have stood up 
the program. We thought we have many more thousands of shippers 
who were participating the program when we would need a much 
larger group as well.
    Ms. Jackson Lee. But you have not answered Mr. Lord and 
giving him a report on how many TSA----
    Mr. Sammon. I will double-check in terms of what that 
report is. But I think the math to me appears it is 600 people 
for 1,600 facilities should be a ratio of about 3 to 1--three 
facilities we need to inspect for every person that seems 
reasonable.
    Ms. Jackson Lee. All right. You want to go on to the other 
questions, the DHS office to private sector and what role it 
plays and then----
    Mr. Sammon. Yes, the private----
    Ms. Jackson Lee [continuing]. Products and technology 
cooperation.
    Mr. Sammon. The private sector offers--there are a number 
of working groups in cargo security. I think there are four 
that we stood up back in January in terms of mail, in terms of 
information sharing, in terms of cargo generally. Those groups 
are working forward.
    A number of people are involved in those groups that I 
think they are due to report out some time later this month. So 
there have been--and a particular issue that they have been--
for instance, I will give you an example of one particular 
issue on the mail business we have, that mail bags, for 
instance, if they come to the United States out of Frankfurt, 
Germany, also Frankfurt may receive mail from--through the 
Czech Republic. It may be trucked over to Frankfurt from the 
Czech Republic to go air-bound.
    If there is a problem with that air bag under mail 
treaties, they can't open it in Germany. So this group is 
focusing on some of those issues and never those kinds of 
things that are impediments and issues that we have to do--have 
to work on and go forward. They are due for their initial 
report out in, I believe, the end of March.
    Science and technology, we have had an open request for new 
technologies for screening that has been up for about a year. 
We just have not had a lot of response for that--to that 
request. The time line that when you do with TSA in terms of 
application coming in with the new product, we do laboratory 
testing and field testing. It does seem like a long time. 
Sometimes it is 6 months, sometimes it maybe up to a year.
    But in the end, what we want to make sure is that those 
machines can pass Mr. Lord's inspections, and if they will meet 
all the criteria they were setup to be capable of. So it is a 
long process, and I know it is rigorous. But again, we have 
tried to set something up so in the end it is certifiable by 
GAO and other entities would need to look at what you are 
doing.
    Ms. Jackson Lee. I think my message is that it is important 
work. You need to be diligent and energetic----
    Mr. Sammon. Yes.
    Ms. Jackson Lee [continuing] About new technology. It is 
going to lead us into the 21st Century and it certainly impacts 
on security.
    With that, Mr. Chairman, let me than you and just indicate 
that I think this is front-line work and crucial. One slip-up 
can cause a loss of life, and I think this is a process of 
security that we should continue our oversight on. With that, I 
yield back.
    Mr. Rogers. Thank you, the Gentlelady. I had one last 
question. It has to do with unused equipment. Unfortunately, we 
are seeing the Department buy some screening equipment that is 
still in warehouses that has never been used as it has been 
reported.
    My question is: We have unused equipment or equipment that 
maybe we have now bought something that is better and we don't 
need the equipment we have been using previously. Is there an 
impediment to us donating that to a foreign country that we 
would like to see step up their game a little bit?
    Mr. Sammon. No. Your--it is a very good observation. We 
have been, I think, working protocols with the State Department 
to get the equipment, and there have been a limited number of 
requests. Another mode of transportation, for instance, with 
the Greyhound Bus Lines, they are--we have TSA equipments that 
they are using to screen people as Houston and in Los Angeles 
and for--a pilot period. So we will make it available under 
whatever protocols or we just have not had a lot of request 
from foreign governments for that, but we would be happy to do 
it for you.
    Mr. Rogers. Would you like me to invite on this committee 
legislatively to make that permissible?
    Mr. Sammon. No, sir. No, sir.
    Mr. Rogers. Excellent. Ms. Jackson Lee, do you have 
anything else?
    Ms. Jackson Lee. I don't, Mr. Chairman. I yield back.
    Mr. Rogers. Thank you. Again, I want to thank the 
witnesses. I know it takes time to prepare for these, and you 
go out--you know, both have a lot of things you could be doing 
so I appreciate you coming and helping us out, and also put 
this information on the record, which I think is critically 
important to do.
    I will remind you that I may have--in fact, I know I have 
some additional questions and some other Members may as well 
but we are going to hold the hearing open for 10 days for 
written questions to be submitted to you. I would ask if you 
receive those to try to get a time to response back to the 
committee Members at your earliest convenience.
    With that, the hearing is adjourned.
    [Whereupon, at 3:48 p.m., the subcommittee was adjourned.]


                           A P P E N D I X  I

                              ----------                              

  Statement of Douglas A. Smith, Assistant Secretary, Private Sector, 
           Office of Policy, Department of Homeland Security
                             March 9, 2011

                              INTRODUCTION

    I would like to thank Chairman Rogers, Ranking Member Jackson Lee, 
and the distinguished Members of the subcommittee for the opportunity 
to provide testimony to discuss the U.S. Department of Homeland 
Security's (DHS) efforts and activities to build genuine partnerships 
with relevant stakeholders to improve air cargo security. Further, I 
would like to thank the subcommittee for its leadership role in 
promoting air cargo security for the American public.
    In order to successfully advance the Department's core missions, we 
must utilize all available resources, including a robust engagement and 
partnership with the private sector. This is especially true for an 
issue as complex and as critical to the global economy as air cargo 
security. As the Assistant Secretary for the Office of the Private 
Sector (PSO), I serve as the Secretary's principal advisor on the 
Department's interaction with the private sector and coordinate the 
Department's engagement with private industry, academia, and the 
nonprofit community--both domestically and internationally--to foster 
an on-going dialogue on how we can work together to best meet our 
collective security challenges.
    Security threats to air cargo are not new, but recent events serve 
as an important reminder that we face an adversary who is patient, 
adaptive, and relentless in its pursuit to inflict physical harm and 
economic disruption wherever possible. There are a number of ways that 
public-private partnerships play an integral role in countering 
critical security and economic threats, including air cargo security. 
Before discussing the benefits of a robust public-private partnership, 
I want to stress the importance of avoiding the false choice between 
security and economic prosperity--they are not mutually exclusive 
ideas.
    Security is a vital goal. But security cannot--and need not--come 
at the expense of undermining the systems that facilitate legitimate 
trade and commerce and enable the livelihoods and progress for so many 
of the world's citizens. The challenge--to chart a middle course that 
balances risk while facilitating the free flow of goods, people, and 
information--is not one that can be met solely by Government or 
industry, but only through partnership. I am an unapologetic optimist 
who believes that by working together, we can secure both our country 
and our economy.
    It is in this spirit that Secretary Napolitano and DHS senior 
leadership has approached air cargo security. The Department's effort 
to engage stakeholders demonstrates our commitment to this principle of 
collaboration. This is not to say that there will always be agreement 
on every issue; we recognize though, that only by working together will 
we find the best solutions to challenges.
    The threats that we face today have little regard for borders. In 
today's globalized world, the very nature of travel, trade, and our 
interconnected economies means that vulnerabilities or gaps anywhere 
have the ability to affect the entire supply chain. DHS is committed to 
partnering with key stakeholders who have a role in ensuring a secure 
and efficient international air cargo system that can adapt to the 
evolving terrorist threat.

               PROGRESS IN AIR CARGO SECURITY SINCE 2010

    It is clear that the threats we face in the aviation sector, 
including air cargo, are real and evolving, and we must confront them 
with strong and dynamic security measures including intelligence, 
technology, and screening processes to stay ahead of this constantly 
evolving threat.
    One recent example that illustrates the evolving and global threat 
that we continue to face is the plot involving air cargo shipments 
filled with explosives being shipped through Europe and the Middle East 
to the United States. This failed attack in October 2010 made it clear 
that significant, collaborative improvements in the air cargo system 
were necessary to not only secure lives but also to ensure against 
disruptions to the system that could result in severe economic 
consequences.
    In cooperation with the private sector and our international 
partners, we have taken significant steps to strengthen the security of 
international air cargo on all aircraft. This work on both passenger 
and cargo security in the aviation sector continues today. I would like 
to highlight some of the ongoing projects that DHS is working on, in 
concert with industry partners, to address the more complex challenges 
associated with the broader global supply chain.

                    AIR CARGO SECURITY WORKING GROUP

    Following the October 2010 attempted attacks on the air cargo 
system, PSO arranged meetings for Secretary Napolitano with the key 
industry partners involved in the air cargo sector. Informed and 
encouraged by these initial discussions, the Secretary asked PSO to 
organize a process through which DHS could receive advice and input 
from all stakeholders on a frequent, on-going basis. In January of this 
year, DHS hosted the kickoff meeting of what we are now referring to as 
the Air Cargo Security Working Group (ACSWG).
    This private-public working group includes domestic and 
international stakeholders from throughout the air cargo community. 
Participation in the initial meeting was extensive, with 
representatives from key stakeholders in the air cargo industry and 
several other Federal partners. The ACSWG was established to ensure 
close coordination between private and public stakeholders to establish 
long-term policies, procedures, and programs that will further ensure 
the security, efficiency, and resilience of the air cargo system.
    Because we wanted to get this dialogue started quickly, we chose to 
organize the ACSWG under the National Infrastructure Protection Plan 
(NIPP) Critical Infrastructure Partnership Advisory Council (CIPAC) 
process, which provides a unifying structure for the integration of a 
wide range of efforts for the enhanced protection and resilience of the 
Nation's critical infrastructure and key resources into a single 
National program.
    Serving as the organizational chair of the ACSWG, I work closely 
with Commissioner Bersin from U.S. Customs and Border Protection (CBP) 
and Administrator Pistole from the Transportation Security 
Administration (TSA), who are jointly serving as co-chairs, to ensure 
that the expertise and experience of both agencies is best utilized.
    Due to the range and complexity of the issues to be addressed, the 
ACSWG divided into four subgroups to focus on specific areas of cargo 
security. Each sub-group is chaired by a DHS official and co-chaired by 
an industry representative. The four subgroups are:
    1. Information Subgroup.--The objective of this group is to examine 
        opportunities to leverage resources and expertise and enhance 
        intelligence and information-sharing among Federal stakeholders 
        and between the U.S. Government and private sector partners. 
        The group examines ways to ensure that timely and actionable 
        information is available, communicated to the appropriate 
        stakeholders, and can be acted upon to secure the goods 
        transported by air.
    2. Technology and Capacity Building Subgroup.--The objective of 
        this group is to review technical standardization activities 
        and develop technologies to fill capability gaps and ultimately 
        build greater capacity.
    3. Global Cargo Programs Subgroup.--The objective of this group is 
        to review and explore opportunities for enhanced public-private 
        coordination as DHS works to address statutory requirements for 
        100 percent screening of in-bound air cargo.
    4. Global Mail Subgroup.--The objective of this group is to review 
        and examine refinements in current procedures specific to mail, 
        identify potential vulnerabilities for mail moving globally on 
        passenger and all-cargo aircraft, and to propose alternative 
        processes and procedures to ensure the safety of mail on air 
        cargo and passenger aircraft.
    The input that DHS receives from these four sub-groups and from the 
full ACSWG will help inform the Department's policies, procedures, and 
programs to address security gaps in air cargo while maintaining a 
robust and efficient air cargo system.

                           INTERNATIONAL MAIL

    There are unique and complex issues associated with the transport 
of international mail within the air cargo system that are important to 
highlight. Immediately following the air cargo incident this past 
October, TSA issued emergency security procedures to air carriers 
regarding the transport of mail to the United States. TSA has continued 
its work with National and international stakeholders, including the 
United States Postal Service, to refine these security measures. 
Moreover, TSA and other DHS components continue to evaluate the threat 
and revise security procedures as necessary, while also monitoring the 
impact on commerce through continued dialogue with industry 
stakeholders.
    It is through this continuing dialogue with industry that revised 
procedures were issued specifically to address international mail and 
facilitate the continued safe and secure transport of international 
mail to the United States. The ACSWG Global Mail subgroup represents an 
important part of that effort.
    This ACSWG subgroup is currently drafting recommendations on 
private sector coordination regarding international mail. These 
recommendations will help improve information sharing and enhance 
targeting capabilities, while ensuring the efficient and secure 
movement of global mail. The ACSWG international mail subgroup will 
also make recommendations to develop state-of-the-art technological 
solutions and help the Department meet legislative requirements. DHS 
looks forward to providing updates to Congress on the progress of these 
efforts as we move forward.

                               CONCLUSION

    While DHS and others across both the public and private sectors 
will continue to identify and address vulnerabilities in the aviation 
system, we know that some level of risk will always exist. Therefore, 
it remains essential that we not only work collaboratively to mitigate 
risk and close security gaps but also to develop policies and processes 
to ensure the continuity of the system should a disruption occur.
    Regardless of whether this disruption is caused by a terrorist 
attack or a natural event, the time to find the best possible answers 
to these questions is now--not reactively. As we continue to look 
beyond the horizon of addressing the near-term security gaps and work 
to create a more resilient supply chain, I look forward to an on-going 
and robust dialogue with industry and other interested partners.
    Again, I want to thank the distinguished Members of the 
subcommittee for the opportunity to provide this testimony.


                          A P P E N D I X  I I

                              ----------                              

  Questions From Chairman Mike D. Rogers of Alabama for John P. Sammon

    Question 1. Given the new time frame, what efforts are currently 
underway at TSA to meet the 2011 deadline to screen 100 percent of 
international in-bound air cargo on passenger planes? What are the 
reasons for the modified time frame in achieving 100 percent screening 
by the end of this year?
    Answer. Complex and sensitive challenges exist in reaching 100 
percent screening of international in-bound air cargo on passenger 
aircraft. The Transportation Security Administration (TSA) is working 
hard to meet the international requirement of the 9/11 Act.
    In accordance with the requirements of the 9/11 Act, and in line 
with early screening reports from industry, TSA released proposed 
security program changes in January 2011 that would require industry to 
screen 100 percent of all in-bound passenger cargo by December 31, 
2011. TSA is currently reviewing the comments received in response to 
these proposed changes.
    As TSA continues its on-going efforts in achieving the highest 
possible level of security for both domestic and international air 
cargo, it is diligently working on a variety of innovative initiatives. 
This requires an on-going analysis of technology as well as the 
expansion of the use of authorized representatives to screen on the air 
carriers' behalf. Authorized representatives can play a key role in 
helping carriers attain 100 percent of cargo screening, if these 
freight forwarders are permitted to screen cargo in accordance with the 
carriers' security program requirements prior to consolidation and 
delivery to the airports. Technology will continue to play an important 
role in screening cargo, and TSA continues to evaluate screening 
technologies. TSA is also evaluating and studying how to best utilize 
and approve explosives detection canine teams at non-U.S. locations.
    TSA also continues to communicate the benefits of National Cargo 
Security Program (NCSP) mutual recognition to foreign government 
counterparts. Such recognition would allow air carriers to comply with 
a single security program, while still ensuring the highest level of 
security and screening of in-bound air cargo. To date, TSA has received 
interest from most of the top 20 high-volume countries shipping into 
the United States, and has received the NCSPs of four of these 
countries for evaluation.
    TSA acknowledges that verifiable attainment of the 100 percent 
screening mandate for international in-bound passenger cargo will 
require additional time. TSA will have a better indication of the time 
frame within which industry can meet the 100 percent in-bound screening 
requirement once the industry comments and program changes have been 
fully analyzed.
    Question 2. In addition to the Secretary's high-level discussions 
with members of the international community on this important topic, 
what is TSA doing to help implement the increased security measures 
that have been proposed?
    Answer. Since October 2010, the Transportation Security 
Administration (TSA) has released multiple Security Directives and 
Emergency Amendments based on intelligence analysis that is focused on 
addressing the threat to air cargo and mail in-bound to the United 
States. TSA also continues to communicate the benefits of National 
Cargo Security Program mutual recognition to foreign government 
counterparts. Such recognition would allow air carriers to comply with 
a single security program, while still ensuring the highest level of 
security control and screening of in-bound air cargo. Authorized 
representatives can play a key role in helping air carriers attain 100 
percent screening of international in-bound, if these freight 
forwarders are allowed to screen cargo in accordance with the carriers' 
security program requirements prior to consolidation and delivery to 
the airports. TSA will continue to partner with our international 
partners and remain an intelligence-driven agency focused on detecting, 
deterring, and disrupting attempted terrorist attacks.
    In addition to aligning enhanced security measures with TSA's 
Standard Security Programs, TSA works closely with U.S. Customs and 
Border Protection (CBP) on multiple Department of Homeland Security 
(DHS) initiatives to secure in-bound air cargo and the international 
supply chain, in line with the Secretary's high-level discussions. 
Specifically, TSA and CBP are working side-by-side on the Air Cargo 
Advance Screening pilot. This pilot is testing the feasibility of pre-
departure advance information collection, as well as baseline threshold 
risk targeting for all in-bound air cargo prior to departing non-U.S. 
locations. These coordinated efforts are in support of on-going DHS 
discussions regarding global supply chain security.
    Question 3. What is your perspective on the feasibility and timing 
of developing international standards for air cargo? Can you give us an 
update on the plans of the International Civil Aviation Organization 
(ICAO), an arm of the United Nations in setting increased aviation 
security standards among its member nations?
    Answer. The Transportation Security Administration (TSA) has 
directly engaged industry and foreign governments through the Global 
Cargo Programs Working Group, one of the four sub-committees of the Air 
Cargo Security Working Group (ACSWG) formed by Secretary Napolitano. 
Through informal and formal dialogue with international organizations, 
foreign governments, and international industry associations, TSA aims 
to more effectively address current issues regarding air cargo 
security.
    TSA works with international organizations and partner countries, 
including the European Commission (EC), the International Civil 
Aviation Organization (ICAO), and the Quadrilateral Working Group 
(QUAD), to enhance and harmonize international aviation security 
standards. ICAO recently strengthened air cargo supply chain security 
measures in Amendment 12 to Annex 17 (Security) to the Convention on 
International Civil Aviation (Chicago Convention), adopted by ICAO 
Council in November 2010. Annex 17 outlines the requirements that ICAO 
Member States must adhere to for aviation security matters through 
Standards and Recommended Practices (SARPs). TSA is currently working 
through ICAO's Aviation Security (AVSEC) Panel of Experts to continue 
to develop SARPs on air cargo security to be included in the next 
Amendment to Annex 17 to address the current threat level. 
Specifically, two Working Groups were developed during the last AVSEC 
Panel meeting in March 2011 to address the creation of more robust air 
cargo SARPs, the Air Cargo Security Working Group and the Working Group 
on Amendment 13 to Annex 17. TSA is a participant in both working 
groups, and therefore will assist in both the development of ICAO air 
cargo best practices and new international standards. Due to the nature 
of ICAO's review and approval structure, adoption of new SARPs may take 
place in late 2012 at the earliest. However, the new and stronger air 
cargo security SARPs adopted in November 2010 will go into effect in 
July 2011, and TSA, as the U.S. representative to the ICAO AVSEC Panel, 
will continue advancing more robust international air cargo security 
controls. The EC Standards, for instance, are expected to be complied 
with by the end of 2013.
    Question 4. Can you describe for this subcommittee, the level of 
coordination TSA has had with stakeholders on air cargo since the Yemen 
cargo incident? Specifically, what is the status of the DHS working 
group on air cargo and what progress has been made through that working 
group?
    Answer. During and since the Yemen events in October 2010, the 
Transportation Security Administration (TSA) has been in constant 
communication with industry stakeholders, international partners, and 
other Department of Homeland Security (DHS) components concerning the 
continuing threat to air cargo and the enhancement of security measures 
to counter that threat. This communication has been effectuated through 
myriad forums, including frequent meetings, conference calls with air 
carriers and other stakeholders, working groups, pilot activities, and 
personnel deployment focusing on strategies to mitigate and respond to 
the on-going threat to cargo security. TSA continues on multiple levels 
to reach out to industry partners, such as the International Air 
Transport Association, the Air Transport Association, the International 
Air Cargo Association, the Cargo Airlines Association, and the Air 
Forwarders Association. TSA also participates in working groups within 
the International Civil Aviation Organization and the World Customs 
Organization that are focused on enhancing and developing robust 
international air cargo security systems.
    In March 2011, TSA Administrator, John Pistole, met with officials 
from the Universal Postal Union (UPU), an arm of the United Nations, to 
discuss the challenges encountered by postal operators of other 
countries. Mr. Pistole committed that TSA will continue to work with 
the UPU in developing long-tem sustainable security measures for mail. 
Follow-up discussions with the UPU took place most recently on May 12, 
2011, where Mr. Douglas Brittin, General Manager for TSNM Air Cargo, 
briefed the UPU on various TSA initiatives to secure mail such as the 
National Postal Security Program (NPSP) recognition program, and the 
Secretary's Workgroup on International Mail Security. Additional 
bilateral discussions were held later with the French, Dutch, and 
German postal authorities. Each were provided additional information on 
NPSP, and currently preparing documentation for review by TSA.
    Additionally, DHS components, including TSA and U.S. Customs and 
Border Protection (CBP), are actively engaged in the DHS air cargo 
security working groups. These working groups are a partnership between 
DHS and industry, whereby each working group is co-chaired by either a 
TSA or a CBP official and an industry representative. Over the past few 
months, these working groups have held substantive discussions 
regarding technology, advance information, global cargo programs, and 
mail security. The working groups collectively presented 
recommendations to the Secretary on April 12, 2011.
    Question 5. How will TSA ensure that it does not waste vital time 
and resources on known shippers and instead look more closely at those 
shippers for whom we don't have adequate information?
    Answer. For domestic air cargo, under the Transportation Security 
Administration's (TSA) Known Shipper Program, shippers that transport 
cargo using air transportation are vetted and become known shippers if 
certain requirements are met. TSA has designed an automated system that 
retrieves available data on companies. This data is retrieved from 
publically available information.
    TSA is working jointly with Customs and Border Protection (CBP) in 
pursuing the Advanced Air Cargo Screening pilot to test the feasibility 
of utilizing baseline threshold targeting for additional scrutiny of 
cargo at non-U.S. locations. TSA and CBP are also collaboratively 
working on the Department of Homeland Security Trusted Trader program, 
which includes a TSA Trusted Shipper concept for incorporation into 
TSA's overall in-bound air cargo security strategy. Although in the 
initial stages, TSA's Trusted Shipper concept would provide an ability 
to focus on higher-risk cargo to establish appropriate security 
measures for mitigation.
    Question 6. What criteria will be used to determine whether 
screening of international in-bound air cargo is achieved to an 
acceptable standard?
    Answer. The Transportation Security Administration (TSA) continues 
to work multilaterally and bilaterally with its international partners, 
and through its regulatory authority to validate and verify the 
application of security requirements in the international in-bound 
environment. TSA has established a risk-based scheduling methodology to 
assess airports and conduct air carrier inspections as frequently as 
possible at locations with the highest risks. While TSA can inspect and 
aggressively pursue enforcement action in the United States, any 
inspection of air cargo screening overseas requires the full voluntary 
cooperation of our foreign partners.
    TSA continues to review other countries' National Cargo Security 
Programs (NCSP) to determine whether their programs provide a level of 
security commensurate with the level of security provided by U.S. cargo 
security programs.
    Question 7. Can you describe the technology requirements for 
screening air cargo? Also, can you describe the efforts under way 
within both the Department and the private sector in developing 
technologies that can adequately screen large palletized cargo units?
    Answer. The Transportation Security Administration (TSA) would be 
happy to provide a classified briefing on cargo screening. The 
Department of Homeland Security's Science and Technology Directorate 
have an on-going Research and Development program to develop 
technologies that can adequately screen palletized cargo. Private 
sector companies fully recognize the commercial potential for such 
systems and are actively pursuing their development.
    Question 8. To what extent is TSA looking to expand its work under 
CCSP to the international arena?
    Answer. The Transportation Security Administration (TSA) does not 
have the same authority to conduct inspections and enforce compliance 
in other countries as it has in the United States. Lack of 
extraterritorial jurisdiction limits our ability to implement the 
Certified Cargo Screening Program (CCSP) internationally. TSA is 
working on multiple initiatives that incorporate supply chain security 
and screening concepts. These initiatives include the use of Authorized 
Representatives (AR) at non-U.S. locations, the development of a 
Trusted Shipper program, and the National Cargo Security Program 
recognition program. Additionally, working through the International 
Civil Aviation Organization (ICAO), TSA is advancing enhanced 
international standards for cargo security, and ensuring that countries 
have the appropriate tools to implement their own supply chain security 
programs.
    The use of ARs would allow air carriers to designate trusted 
business partners, including freight forwarders, as entities to perform 
screening on their behalf. ARs will allow for cargo to be screened by 
these entities while operating under the air carriers' security 
programs, and enable them to screen the cargo at various points in the 
supply chain. Although not established as a CCSP, it provides similar 
benefits by enabling cargo to be screened prior to consolidation.
    Question 9. What suggestions do you have for how Congress can help 
you in your mission to secure air cargo?
    Answer. In support of the Transportation Security Administration's 
(TSA) mission in securing both the domestic and international cargo 
chains, TSA believes there are multiple areas and avenues where 
Congressional support and assistance will be essential. TSA requests 
that Congress continues its support of air cargo screening programs and 
pilots that focus on technology for screening consolidated cargos and 
the use of canines within the United States. At the international 
level, TSA believes that Congress can continue to show strong support 
for TSA's and the Department of Homeland Security's overall strategy of 
engaging both the international community and private industry, as TSA 
continues to pursue security initiatives that focus on the evolving 
threat clearly demonstrated by the events of October 2010.
    Question 10. What processes does the Transportation Security 
Administration (TSA) have in place to identify high-risk cargo?
    Answer. Since October 2010, the Transportation Security 
Administration (TSA) has released multiple Security Directives (SD) and 
Emergency Amendments (EA) focused on addressing the threat to in-bound 
air cargo and mail to the United States. Measures contained in SD/EAs 
are based on intelligence and analysis of threats within the cargo 
supply chain. SDs and EAs issued throughout November and December 2010, 
and in January, February, and March 2011, focused on identifying high-
risk cargo, and the appropriate mitigation of potential threats to 
aviation. Methods of identifying and screening such cargo are provided 
in these SDs and EAs. These methods are considered Sensitive Security 
Information, therefore, TSA would be happy to provide a security brief 
at the committee's convenience.
    In addition, TSA is working side-by-side with Customs and Border 
Protection (CBP) on the Air Cargo Advance Screening (ACAS) pilot 
project as well as the Department of Homeland Security's (DHS) Trusted 
Trader Program, which includes a TSA Trusted Shipper component.
    The ACAS pilot focuses on utilizing advance information provided by 
the air carrier to target and identify high-risk cargo shipments for 
screening and further mitigation. Both TSA and CBP are piloting this 
effort in order to develop a long-term comprehensive strategy to apply 
baseline threshold targeting to all in-bound air cargo. Although in the 
initial stages, TSA's Trusted Shipper concept would provide an 
additional layer of focus on higher or elevated risk cargo and 
establish appropriate security measures for mitigation.
    Question 11. What is the status of the TSA and CBP new joint 
technology pilot project referred to as the air cargo advance screening 
program (ACAS)? Do you think this program will be more successful than 
if TSA developed its own targeting system to support the international 
air cargo mission?
    Answer. Immediately following the cargo-related incidents out of 
Yemen in October 2010, the Transportation Security Administration (TSA) 
and U.S. Customs and Border Protection (CBP) accelerated efforts to 
test and implement baseline threshold targeting through the Air Cargo 
Advance Screening (ACAS) pilot. This pilot will include three phases. 
Initially, the pilot will focus on the express air cargo carriers, then 
move into the passenger air carrier environment, and then the all-cargo 
environment. Pilot activities are focused on a proof of concept for 
each of the key building blocks: Data, targeting, and enhanced 
screening. These proof of concept activities are expected to culminate 
in the implementation of a comprehensive pre-departure targeting and 
screening regime.
    Since November 2010, TSA and CBP have established a joint targeting 
unit at the National Targeting Center--Cargo, where both TSA and CBP 
targeting analysts review advance cargo information and perform 
threshold targeting side-by-side. Leveraging existing systems provides 
synergies between TSA and CBP programs, promotes efficiencies and cost-
effectiveness for both the Federal Government and industry, and will 
expedite the implementation of this initiative.

Question From Ranking Member Bennie G. Thompson of Mississippi for John 
                               P. Sammon

    Question. In the past, the Transportation Security Administration 
has been criticized for its lack of coordination with the Department of 
Homeland Security Science and Technology Directorate, in particular, in 
its role in developing and approving technologies for cargo screening 
and security. What steps have been taken to enhance the Transportation 
Security Administration's coordination with the Department of Homeland 
Security's Science and Technology Directorate? Within the past year, 
have there been any notable developments with respect to identifying or 
certifying new technologies for air cargo screening?
    Answer. The Department of Homeland Security's Science and 
Technology Directorate (DHS S&T) and the Transportation Security 
Administration (TSA) collaborate on the research and development of air 
cargo screening technologies. In addition to daily staff coordination, 
S&T and TSA maintain a formally chartered Integrated Product Team that 
meets monthly to coordinate a wide range of technology activities. S&T 
and TSA also mutually conduct semi-annual formal technology program 
reviews. Within the past year, S&T and TSA qualified large aperture 
Enhanced Metal Detectors (EMD), which can screen up to skid-sized cargo 
configurations. Use of EMDs is particularly desired for screening of 
highly perishable commodities such as fresh fruit and flowers.

 Questions From Ranking Member Sheila Jackson Lee of Texas for John P. 
                                 Sammon

    Question 1. In response to my question during the hearing regarding 
airport perimeter security you stated that while there is work being 
done by the Transportation Security Administration to enhance airport 
perimeter security, there is not a common understanding of the 
standards in place, what the standards should be and how specific 
airports relate to the existing standards. Please describe the work 
currently being conducted by the Transportation Security 
Administration, including vulnerability assessments at airports, to 
address airport perimeter security protocols and inform the committee 
of the extent to which stakeholder input is being solicited and 
provided to address the issue of perimeter security at airports.
    Answer. The Transportation Security Administration (TSA) Security 
Assessment Division within the Office of Law Enforcement/Federal Air 
Marshal Service is responsible for conducting Joint Vulnerability 
Assessments (JVA) at U.S. commercial airports. The assessments are 
conducted in conjunction with the Federal Bureau of Investigation (FBI) 
and are in compliance with 49 U.S.C.  44904, Domestic Air 
Transportation System Security. The FBI conducts a threat assessment, 
while TSA conducts the physical security assessment. The JVA consists 
of a comprehensive review of five areas of the airport: Perimeter, 
terminal, airport operations, airport services, and infrastructure 
systems. When conducting the assessment of the perimeter, the 
assessment team evaluates the effectiveness of the perimeter fence, 
access controls, security patrols, lighting, signage, culverts, clear 
zones, and closed circuit television systems. The makeup of the JVA 
team consists of law enforcement personnel, Transportation Security 
Specialists, Transportation Security Inspectors (TSI), and stakeholder 
representatives (airport operations or airport police). The Success of 
the JVA process depends upon the cooperative relationship TSA enjoys 
with its airport stakeholders. The role of the stakeholders usually 
consists of assisting the JVA team with escorting, setting up 
interviews, and explaining the security posture of the airport. They 
are also encouraged to identify areas of concern that they believe to 
be vulnerable.
    Airports are required to develop an Airport Security Program (ASP) 
which is approved by TSA under 1542.101 of 49 CFR Chapter XII. The ASP 
outlines the security posture in which the airport must operate. For 
example, it will identify the security requirements for the airport 
perimeter. TSA TSIs are assigned to the airports and are responsible 
for inspecting the airport for compliance with its ASP and ensure it 
adheres to all regulatory requirements as provided in 49 CFR 1542 and 
all current and applicable security directives.
    Question 2. Please describe the respective roles and 
responsibilities of an airport authority and the Transportation 
Security Administration in addressing problems or vulnerabilities 
raised in periodic perimeter security joint vulnerability assessments. 
How much time is recommended for corrective action of vulnerabilities 
raised in joint vulnerability assessments?
    Answer. Vulnerabilities identified by the Joint Vulnerability 
Assessment (JVA) process are presented to the Federal Security Director 
(FSD) during an out brief at the conclusion of the assessment, where 
representatives from the airport authorities are invited to 
participate. A comprehensive report is submitted to the FSD within 60 
days of the assessment. The report includes the vulnerabilities 
observed, recommendations for mitigation, and any best practices 
identified. The Security Assessment Division works collaboratively with 
the Transportation Security Administration's (TSA) Office of Security 
Operations to identify and implement strategies to mitigate 
vulnerabilities identified by the JVA process.
    Airports are required to develop an Airport Security Program (ASP) 
which is approved by TSA under 1542.101 of 49 CFR Chapter XII. The ASP 
outlines the security posture in which the airport must operate. For 
example, it will identify the security requirements for the airport 
perimeter. TSA TSIs are assigned to the airports and are responsible 
for inspecting the airport for compliance with its ASP and ensure it 
adheres to all regulatory requirements as provided in 49 CFR 1542 and 
all current and applicable security directives.
    There is no regulatory requirement for airports to implement 
recommendations from the JVA findings. As the acceptance of the 
recommendations is voluntary, there is no established time line for 
implementation; however, if an airport decides to accept the 
recommendations, the FSD works to establish changes to the ASP and 
these changes may or may not have a specific time line.
    Question 3. What is the status of the Aviation Security Advisory 
Committee (ASAC)? Will ASAC be re-chartered and will it be a forum for 
stakeholders to have input on the Transportation Security 
Administration's security programs and policies?
    Answer. As part of the Department of Homeland Security's efficiency 
review of advisory committees, charter renewal actions were placed on 
hold, and the charter for the Aviation Security Advisory Committee 
(ASAC) subsequently expired on April 3, 2010. However, the efficiency 
review re-affirmed the need for the ASAC, and the Transportation 
Security Administration is in the process of re-establishing the 
committee (i.e. charter approval, membership appointment). It is 
anticipated that the ASAC will meet in 2011 to provide advice and 
recommendations for improving aviation security measures.
    Question 4. The President's budget request for fiscal year 2012 
essentially level-funded the cargo security programs carried out by the 
Transportation Security Administration. Are you adequately resourced to 
provide oversight both domestically and abroad to ensure that cargo 
shipments are being properly screened and that the screening data 
provided can be validated?
    Answer. The President's 2012 budget fully supports TSA's air cargo 
activities.
    Question 5. The Transportation Security Administration has 
established a system to certify independent facilities and firms to 
screen cargo. Please tell us what provisions you are requiring of these 
firms in terms of securely transporting screened cargo to the aircraft 
and whether there exists vulnerability in this process?
    Answer. Once the Transportation Security Administration (TSA) 
certifies an entity as a Certified Cargo Screening Facility (CCSF), it 
must follow the specific Chain of Custody (CoC) requirements mandated 
in its TSA-approved Standard Security Program (SSP). The SSP requires 
that all personnel who handle screened cargo at CCSFs undergo a 
Security Threat Assessment. The SSP also requires certification and 
verification procedures for cargo, tamper-evident technology 
requirements, and vehicle security requirements. If any single element 
of these processes is missing or incomplete, the cargo must be fully 
rescreened before loaded on an aircraft. In addition, passenger 
airlines and indirect air carriers have acceptance procedures outlined 
in their TSA-approved SSPs to ensure that proper CoC procedures are 
maintained. TSA continually evaluates established SSP requirements for 
further security enhancements.
    Transportation Security Inspectors for Cargo (TSIC) conduct 
inspections throughout the U.S. air cargo supply chain on a regular 
basis. TSICs perform a thorough review of cargo screening, as well as 
implementation of CoC measures throughout the supply chain and during 
ground movement. TSA acknowledges that there are violations of the CCSF 
Program requirements, and TSA ensures that any instance of non-
compliance is immediately corrected and is aggressively addressed 
through appropriate enforcement action.
    Question 6. How are employees at certified screening facilities 
trained in the screening and secure transport process? Does the 
Transportation Security Administration train the employees or does it 
train the trainer at these facilities? With staff turnover, how will 
the Transportation Security Administration ensure that employees at 
these facilities remain compliant?
    Answer. The Certified Cargo Screening Facilities (CCSFs) are 
required to either develop their own training or use the Transportation 
Security Administration's (TSA) developed training to train their 
employees. TSA training covers TSA's mission, general program 
requirements, personnel and facility security, screening requirements, 
Chain of Custody (CoC) procedures, Improvised Explosive Device (IED) 
recognition, and technology screening protocols. If a CCSF decides to 
create its own training program, TSA requires that the CCSF's training 
curriculum covers all areas outlined in the TSA-developed training. TSA 
does not train private sector employees directly, as it is the 
responsibility of the regulated entity to comply with all security 
requirements (including training requirements); the entity must ensure 
that its employees are cognizant of such requirements and competent to 
abide by them. Furthermore, TSA Transportation Security Inspectors 
(TSIs) provide routine regulatory oversight for quality control.
    To ensure that employees at these facilities remain compliant, 
TSA's Air Cargo Compliance Office also conducts unannounced and regular 
inspections of CCSFs. These inspections involve, among other things, a 
thorough review of air cargo security training and cargo screener 
training. TSA TSIs review training records, observe employees and 
agents carrying out security functions, conduct interviews to assess 
knowledge base and competence, and conduct tests to ensure compliance. 
When discrepancies are noted, the TSIs initiate investigations and take 
enforcement action as appropriate. These actions could include 
resolution of noncompliance through on-the-spot counseling, development 
of a corrective action plan, monetary civil penalties, or suspension of 
operations (withdrawal of certification) depending on the nature and 
extent of noncompliance. All CCSFs must be inspected twice per year at 
a minimum, but most are inspected more often based on the Air Cargo 
Compliance Office's risk-based approach to inspections; entities deemed 
higher-risk are inspected more often.

 Questions From Chairman Mike D. Rogers of Alabama for Stephen M. Lord

    Question 1. Given the new time frame, what efforts are currently 
underway at TSA to meet the 2011 deadline to screen 100 percent of 
international inbound air cargo on passenger planes? What are the 
reasons for the modified time frame in achieving 100 percent screening 
by the end of this year?
    Answer. As of March 23, 2011, TSA officials were in the process of 
evaluating industry comments on DHS' proposal to accelerate the 
deadline to December 31, 2011 for screening 100 percent of cargo bound 
for the United States on passenger aircraft. TSA officials stated that 
they plan to complete their review by the end of April 2011. TSA moved 
its deadline for meeting the 100 percent screening mandate as it 
applies to inbound air cargo on passenger aircraft to December 2011 as 
a result of reported air carrier screening data and discussions with 
air cargo industry leaders regarding progress made by industry to 
secure inbound cargo. Based on data submitted to TSA by the air 
carriers, TSA estimates that about 80 percent of inbound cargo by 
weight was screened as of August 2010. One factor contributing to 
increased screening levels is TSA's May 2010 decision to require air 
carriers to screen a certain percentage of shrink-wrapped and banded 
inbound cargo. In implementing this requirement, air carriers 
determined that it was more effective to screen larger groupings of 
cargo at the point of origin, which resulted in more than the required 
percentage being screened. Therefore, according to TSA officials, 
continued progress made by industry would help TSA to meet its proposed 
December 31, 2011 deadline to screen 100 percent of inbound passenger 
cargo.
    Question 2. In addition to the Secretary's high-level discussions 
with members of the international community on this important topic, 
what is TSA doing to help implement the increased security measures 
that have been proposed?
    Answer. TSA has taken several steps to enhance the security of air 
cargo on domestic and inbound flights. Following the October 2010 Yemen 
air cargo bomb attempt, TSA banned cargo originating in Yemen and 
Somalia from transport into the United States; banned the transport of 
cargo deemed high-risk on passenger aircraft; prohibited the transport 
of toner and ink cartridges weighing 16 ounces or more on passenger 
aircraft in carry-on and checked luggage; and required additional 
screening of high-risk cargo prior to transport on an all-cargo 
aircraft.
    As we reported in December 2010, TSA has worked with foreign 
partners to enhance security standards and practices by, among other 
things, drafting Amendment 12 to International Civil Aviation 
Organization (ICAO's) Annex 17 which will set forth new standards 
related to air cargo such as requiring ICAO members to establish a 
system to secure the air cargo supply chain. TSA has also worked with 
foreign governments to address other areas of aviation security. For 
example, TSA has coordinated with foreign governments to develop 
enhanced screening technologies that will detect explosive materials on 
passengers. According to TSA officials, the agency frequently exchanges 
information with its international partners on progress in testing and 
evaluating various screening technologies. For example, in November 
2010, TSA hosted an international summit that brought together 
approximately 30 countries that are deploying or considering deploying 
advanced imaging technology (AIT) units at their airports in order to 
discuss, among other things, AIT policy, protocols, and best practices. 
In addition, following TSA's decision to accelerate the deployment of 
AIT in the United States, the Secretary of Homeland Security encouraged 
other nations to consider using AIT units to enhance passenger 
screening globally. As a result, several nations have begun to test or 
deploy AIT units, and one country, Australia, has committed to 
introducing AIT at international terminals in 2011. Finally, TSA 
conducts foreign airport assessments, which serve to strengthen 
international aviation security. Through TSA's foreign airport 
assessment program, TSA assesses the security measures used at foreign 
airports to determine if they maintain and carry out effective security 
practices. During assessments, TSA provides on-site consultations and 
makes recommendations to airport officials or the host government to 
immediately address identified deficiencies.
    Question 3. What is your perspective on the feasibility and timing 
of developing international standards for air cargo? Can you give us an 
update on the plans of the International Civil Aviation Organization 
(ICAO), an arm of the United Nations in setting increased aviation 
security standards among its member nations?
    Answer. On a global basis, ICAO has established security standards 
and recommended practices to help ensure a minimum baseline level of 
international aviation security among member nations. These 
international aviation security standards and recommended practices are 
detailed in Annex 17 to the Convention on International Civil Aviation, 
as adopted by ICAO. Amendment 12 to Annex 17 will set forth new 
standards related to air cargo such as requiring members to establish a 
system to secure the air cargo supply chain. Although Amendment 12 has 
been approved by the ICAO council, it is not expected to become 
applicable until July 2011.
    Question 4. Can you describe for this subcommittee, the level of 
coordination TSA has had with stakeholders on air cargo since the Yemen 
cargo incident? Specifically, what is the status of the DHS working 
group on air cargo and what progress has been made through that working 
group?
    Answer. As we reported in our March 9, 2011 testimony, following 
the Yemen cargo incident, DHS and TSA reached out to international 
partners, IATA, and the international shipping industry to emphasize 
the global nature of transportation security threats and the need to 
strengthen air cargo security through enhanced screening and 
preventative measures. TSA also deployed a team of security inspectors 
to Yemen in late 2010 to provide that country's government with 
assistance and guidance on their air cargo screening procedures. We 
also reported that TSA is working closely with CBP, industry, and 
international partners through the air cargo advance screening program 
pilot project, initiated in December 2010, to expedite the receipt of 
advanced cargo data for international flights to the United States 
prior to departure in order to more effectively identify and screen 
high-risk cargo. According to TSA officials, two all-cargo carriers are 
included in the pilot and are examining the feasibility of transmitting 
pre-departure manifest data in advance of the current requirement, 
which is 4 hours prior to flights landing in the United States. TSA 
officials stated that early test results have been positive, but that 
providing manifest data in advance may prove challenging for some air 
carriers. Before expanding the pilot to include passenger carriers, TSA 
is working to establish written protocols to determine the appropriate 
course of action following the identification of a high-risk shipment. 
The DHS Air Cargo Security Working Group consists of four ``sub'' 
working groups focusing on the areas of global mail, global cargo 
programs, information, and technology/capacity building. According to 
industry stakeholders, the sub groups plan to report their findings to 
the DHS Secretary and CBP Commissioner in April 2011, which will 
include recommendations to enhance air cargo security and identifying 
opportunities for private-public cooperative action.
    Question 5. How will TSA ensure that it does not waste vital time 
and resources on known shippers and instead look more closely at those 
shippers for whom we don't have adequate information?
    Answer. Suggest directing question to TSA.
    Question 6. What criteria will be used to determine whether 
screening of international inbound air cargo is achieved to an 
acceptable standard?
    Answer. GAO assumes this question refers to the requirement to 
screen 100 percent of inbound passenger cargo by the proposed December 
31, 2011 deadline. As we reported in March 2011, TSA is coordinating 
with foreign countries to evaluate the comparability of their air cargo 
security requirements with those of the United States. According to TSA 
officials, the agency developed the National Cargo Security Program 
(NCSP) to recognize air cargo security programs of foreign countries 
that TSA deems provides a level of security commensurate with TSA's 
programs. TSA plans to coordinate with the top 20 air cargo volume 
countries, which according to TSA officials, export about 90 percent of 
the air cargo transported to the United States on passenger aircraft. 
According to officials, TSA has completed a review of one country's air 
cargo security program and has determined that its requirements are 
commensurate with those of the United States. As of March 2011, TSA 
continues to evaluate comparability of air cargo security programs for 
several other countries. TSA officials stated that although the 
December 31, 2011, deadline to achieve 100 percent screening is 
independent of this effort to review the air cargo security programs of 
other countries, the agency plans to recognize as many commensurate 
screening programs as possible by the December 2011 deadline.
    Question 7. Can you describe the technology requirements for 
screening air cargo? Also, can you describe the efforts under way 
within both the Department and the private sector in developing 
technologies that can adequately screen large palletized cargo units?
    Answer. TSA allows air carriers transporting cargo to the United 
States to use a variety of methods and non-intrusive technologies to 
screen such cargo. For example, air carriers are allowed to use 
physical search, X-ray and explosives detection systems to screen 
inbound air cargo. However, in March 2011, we reported that TSA has not 
approved any equipment to screen cargo transported on unit-load device 
(ULD) pallets or containers--both of which are common means of 
transporting air cargo on wide-body passenger aircraft--both domestic 
and inbound aircraft. The maximum size cargo configuration that may be 
screened is a 484865-inch skid, much smaller than the large pallets 
typically transported on wide-body passenger aircraft. This is 
particularly important because as we reported in June 2010, about 96 
percent of inbound air cargo arrives on wide-body aircraft, and TSA has 
limited authority to oversee screening activities of foreign 
governments or entities. We will continue to review TSA's efforts to 
secure inbound air cargo, including TSA's efforts to test technologies 
that could be used to screen ULD pallets or containers.
    Question 8. To what extent is TSA looking to expand its work under 
CCSP to the international arena?
    Answer. Suggest directing question to TSA.
    Question 9. What suggestions do you have for how Congress can help 
you in your mission to secure air cargo?
    Answer. Suggest directing question to TSA since TSA is charged with 
this mission. We are currently reviewing TSA's efforts to secure 
inbound air cargo for the House Committee on Homeland Security and 
Senate Committee on Homeland Security and Governmental Affairs and will 
report on opportunities to enhance these efforts later this year.
    Question 10. What processes does the Transportation Security 
Administration (TSA) have in place to identify high-risk cargo?
    Answer. As discussed in the response to question 4 above, TSA is 
working with CBP, industry, and international partners through the air 
cargo advance screening program pilot project to examine the 
feasibility of expediting the receipt of advanced cargo data for 
international flights to the United States prior to departure in order 
to more effectively identify and screen high-risk cargo. In the 
interim, TSA implemented additional security measures following the 
Yemen cargo incident, such as banning the transport of cargo deemed 
high-risk on passenger aircraft, and requiring additional screening of 
high-risk cargo prior to transport on an all-cargo aircraft.
    Question 11. What is the status of the TSA and CBP new joint 
technology pilot project referred to as the air cargo advance screening 
program (ACAS)? Do you think this program will be more successful than 
if TSA developed its own targeting system to support the international 
air cargo mission?
    Answer. As discussed in questions 4 and 10 above, in December 2010, 
TSA, CBP, and the air cargo industry launched the air cargo advance 
screening program pilot project to enhance the sharing of electronic 
shipping information to improve the identification of high-risk cargo. 
In March 2011, TSA officials stated that two all-cargo carriers were 
voluntarily participating in the pilot, and the pilot will expand to 
additional all-cargo carriers and passenger carriers in the future. 
Given that this pilot is new, it is too soon to evaluate its 
effectiveness, but we will monitor the pilots' progress as part of our 
on-going review of TSA's efforts to secure inbound air cargo for the 
House Committee on Homeland Security and Senate Committee on Homeland 
Security and Governmental Affairs.

Question From Ranking Member Sheila Jackson Lee of Texas for Stephen M. 
                                  Lord

    Question 1. In previous testimony before the committee, the 
Government Accountability Office has expressed concerns about the 
Transportation Security Administration's ability to verify domestic 
cargo screening data. What steps has the Transportation Security 
Administration taken to implement mechanisms that strengthen the 
verification of cargo screening data?
    Answer. As we reported in June 2010, questions exist about the 
reliability of TSA's reported screening data for in-bound cargo because 
TSA does not have a mechanism to verify the accuracy of the data 
reported by industry. We recommended that TSA develop a mechanism to 
verify the accuracy of all screening data through random checks or 
other practical means and obtain actual data on all inbound screening. 
TSA concurred in part with our recommendation, stating that as of May 
1, 2010, the agency issued changes to air carriers' standard security 
programs that require air carriers to report inbound cargo screening 
data to TSA. As of March 2011, TSA officials stated that current 
screening percentages for inbound air cargo are now based on actual 
data reported by air carriers rather than estimates. However, the 
agency has not yet developed a mechanism to verify the accuracy of this 
data, as called for in our recommendation.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
